AUDIT OF THE DRUG ENFORCEMENT 

       ADMINISTRATION’S

     AVIATION OPERATIONS

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 12-05

            December 2011

 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S

               AVIATION OPERATIONS

                          EXECUTIVE SUMMARY

       The Drug Enforcement Administration’s (DEA) aviation program plays
a crucial role in the DEA’s efforts to prevent the illicit trafficking of drugs into
and within the United States. According to the DEA, aviation support
significantly benefits DEA investigative and intelligence efforts, and enhances
the safety, anonymity, and effectiveness of DEA operations both
domestically and internationally. DEA aviation resources are primarily used
to support DEA enforcement and intelligence operations by providing aerial
surveillance, assisting land and water interdiction efforts, and performing
reconnaissance. DEA aviation resources are also used for administrative
purposes, such as transporting evidence, equipment, and personnel when
necessary. For fiscal year (FY) 2010 the DEA aviation program had an
annual budget of $47.6 million.

      The DEA’s aviation operations are managed by its Aviation Division,
which is headquartered at the Aviation Operations Center in Fort Worth,
Texas. The Aviation Division centrally manages and oversees all DEA
aviation assets, including Special Agent Pilots, aircraft, and equipment. The
Aviation Division is led by a Special Agent in Charge, who reports directly to
the DEA Chief of Operations.

      As of May 2011 the DEA’s aircraft fleet was comprised of 92 single and
multi-engine propeller airplanes, multi-engine jet aircraft, and single and
multi-engine helicopters. While the DEA’s fleet is primarily located in the
United States, some DEA aircraft used to support DEA international
operations are located in Afghanistan, the Commonwealth of The Bahamas,
Colombia, Mexico, and Peru.

       As of June 2011 the DEA employed 108 Special Agent Pilots. In
FYs 2009 and 2010, DEA data indicated that DEA Special Agent Pilots flew
over 24,000 flights and logged 63,000 flight hours. Over 50,000 of these
flight hours (approximately 80 percent) were in support of DEA operational
activities.




                                         i
OIG Audit Approach

       The objective of this audit was to assess the DEA’s management of its
aviation operations. Specifically, we analyzed the usage, prioritization, and
availability of DEA aviation assets, primarily focusing on its domestic-based
aviation operations for FYs 2009 and 2010. To accomplish our objective we
performed work at DEA headquarters in Arlington, Virginia, and at the DEA
Aviation Operations Center in Fort Worth, Texas. We also performed
fieldwork at five domestic locations, visiting DEA Aviation Resident Offices
and DEA field offices. We conducted interviews with the DEA’s Chief of
Operations, Chief Financial Officer, Aviation Division Special Agent in Charge,
and other headquarters-level officials and personnel. Additionally, at the
field locations we visited, we interviewed DEA aviation personnel, such as
Resident Agents in Charge and Special Agent Pilots, as well as enforcement
personnel who benefit from DEA aviation support, including field office
management and Special Agents.

      In addition, we examined the DEA’s procedures for requesting aviation
support and flight activity data to determine how resources were used to
support priority investigations. We also reviewed a 1995 OIG report on
DEA’s management of its aviation program. 1 Appendix I of this report
contains a more detailed description of our audit objective, scope, and
methodology.

Results in Brief

       The DEA must strategically utilize its aviation resources to ensure its
priority cases receive sufficient support. The DEA’s overall data suggests
that priority cases make up approximately 20 percent of the DEA’s
investigations, and these cases receive most of the aviation support.
However, in contrast, in some of the DEA field office locations we visited we
found that non-priority targets received most of the aviation support.

       In addition, we found that initial requests for aviation support typically
are made informally, over the phone or in person, and that DEA Special
Agent Pilots may deny such requests without the involvement of DEA
management. We could not confirm whether aviation support requests in
the field offices we visited had been properly prioritized because there is no
requirement to document the prioritization of competing requests at the field
level. Accordingly, in this report we recommend that the DEA require that


       1
         U.S. Department of Justice Office of the Inspector General (OIG), Audit of the Drug
Enforcement Administration Management of Aviation Operations, Audit Report 95-29
(August 1995).


                                             ii
all aviation support requests are initiated by field office supervisors and that
prioritization decisions between competing requests are documented.

      Although DEA Special Agent Pilots consistently submitted to the
Aviation Division mission report forms for operations they completed, we
found numerous instances where incorrect or incomplete information was
recorded on these mission report forms, such as incorrect case numbers.
Aviation personnel also failed to consistently capture and report information
related to unfulfilled requests for aviation support. According to DEA data,
DEA field offices reported that 1,139 (78 percent) non-weather related,
unfulfilled aviation support requests in FYs 2009 and 2010 were not fulfilled
because of an unavailable aircraft (maintenance-related or otherwise), pilot,
or observer. However, we found that this data was inconsistently reported
and likely underreported. Accurate and complete information on fulfilled and
unfulfilled requests for aviation support is important for the DEA to be able
to assess the demands on its limited aviation resources, evaluate the
aviation support provided, and project its future aviation resource needs.
We make recommendations in this report that we believe will help the DEA
improve how it captures and utilizes this information to more accurately
project and manage aviation program needs.

       We also found that maintenance was the most frequently reported
reason for unfulfilled aviation support requests during FYs 2009 and 2010.
In FY 2010, 58 of the 100 available DEA aircraft were operational more than
80 percent of the time while 42 aircraft were grounded due to maintenance
issues more than 20 percent of the time, including 6 aircraft that were
available less than 60 percent of the time. As of December 2010, the DEA’s
fleet ranged in age from 2 years to over 35 years old. Our review showed
that substitute aircraft were generally made available during times of
prolonged aircraft maintenance.

       In addition, we found that certain DEA practices may jeopardize the
safety of DEA aviation personnel and assets. DEA aircraft are maintained in
40 locations across the United States. In each of these locations the DEA’s
aviation program is a covert operation, with knowledge of aviation asset
locations generally limited to DEA personnel. However, despite the covert
nature of these operations, in 24 of these locations DEA aircraft are stored in
hangar spaces shared with commercial organizations or private individuals.
In one location we visited that is known for a high-level of drug trafficking
activity, DEA personnel noted that those sharing its hangar space changed
often and that the DEA did not control who had had access to the hangar.
Therefore, there is a risk that DEA aircraft could be stored with aircraft
owned by individuals or organizations involved in drug trafficking. In
addition, after searching Federal Aviation Administration (FAA) aircraft


                                       iii
registration records we found, as of September 2011, 13 DEA domestic-
based aircraft that should have been covertly registered to fictitious or cover
organizations but were not. Although we recognize that it is impossible for
the DEA to completely eliminate security threats to its aviation personnel
and property, we make recommendations in this report that we believe will
help the DEA minimize potential risks.

      Also, DEA officials informed us that Special Agent Pilots were not
required to prepare formal pre-flight risk assessments that consider factors
such as weather conditions and pilot fatigue. However, at our audit close­
out meeting, DEA officials stated that they planned to soon implement a
formalized pre-flight risk assessment. We recommend that the DEA
implement a mandatory, formal pre-flight risk assessment that adequately
documents and objectively quantifies the Aircraft Commander’s assessment
of the level of risk associated with a flight. This requirement will help the
DEA ensure that its pilots consistently consider all pre-flight risks.

      In our report we make 11 recommendations to assist the DEA in the
management of its aviation operations. Our full report contains detailed
information on the results of our review. The remaining sections of this
Executive Summary summarize our audit findings.

DEA Domestic Aircraft Usage and Agency Priorities

      In both foreign and domestic operations, DEA Special Agent Pilots flew
over 50,000 hours in support of DEA operations during FYs 2009 and 2010.
Seventy-four (74) percent of these operational flight hours supported the
DEA’s 21 domestic field divisions and headquarters program operations. The
remaining 26 percent supported DEA international operations.

       The DEA’s domestic enforcement strategy is to disrupt and dismantle
the most significant drug, money laundering, and narco-terrorism related
organizations. The DEA classifies its most significant investigations of drug
traffickers as Priority Target Organizations (PTO). In FY 2010, only
20 percent of the DEA’s over 32,000 investigations were designated as PTO
cases.

      The DEA must strategically utilize its resources, including its use of
aviation resources, to ensure PTO cases receive priority attention. DEA
aviation resources also are used for headquarters-derived priority
operations, such as its Mobile Cannabis Eradication Response Team
(Cannabis Eradication), which require specialized aviation support. In
FY 2010 alone, DEA Special Agent Pilots flew 1,884 hours for Cannabis
Eradication operations.



                                       iv
     Our analysis of DEA aviation data for domestic operations in FYs 2009
and 2010 shows that the majority of aviation efforts were flown in support of
DEA priority investigations and operations, as the following exhibit
demonstrates.

                          DEA Aviation Mission Hours
                      In Support of Domestic Operations
                          Fiscal Years 2009 and 2010
             Fiscal Year 2009                             Fiscal Year 2010

                                                     8,562
          7,864                                      (46%)
          (42%)               7,187
                              (39%)                                       6,563
                                                                          (35%)



                    3,466                                      3,564
                    (19%)                                      (19%)




         Total Flight Hours = 18,517                 Total Flight Hours = 18,689

           Priority Targets       Headquarters Priority        Non-Priority Targets

      Source: DEA Aviation Division

       However, we found in two of the field offices we visited, priority target
cases were receiving less support than non-priority target cases. As
discussed in greater detail below, we could not confirm whether requests in
these offices had been properly prioritized because DEA aviation personnel
did not consistently report unfulfilled requests. Further, DEA does not have
criteria for its personnel to use in deciding the prioritization of aviation
support, and it does not require such decisions to be documented.




                                           v
Aviation Support Requests and Prioritization

       DEA policy does not require that requests for aviation support be
submitted to a particular individual or office. DEA enforcement personnel
typically submit requests for aviation support to Aviation Division personnel
responsible for providing aviation support to the requesting field office, such
as a Special Agent Pilot or a Resident Agent in Charge. In addition, DEA
Aviation Division policy does not require written requests for aviation
support. We found that initial requests for aviation support are often made
informally, over the phone or in person. Further, we found that the Special
Agent Pilot receiving a request may deny it verbally at the time it is received
without consulting aviation management. When we discussed this issue with
aviation management we were told that field office management is generally
included during the formal planning stage for an operation and if aviation
resources had been informally denied by a Special Agent Pilot they would
likely be aware of it. However, DEA management can only prioritize the use
of aviation resources when they have complete knowledge of all potential
uses of aviation resources.

        Aviation personnel frequently receive multiple requests for aviation
support for the same time period. In FYs 2009 and 2010, DEA Special Agent
Pilots reported 138 instances in which requests for aviation support were not
fulfilled because aviation resources were being used to support higher
priority missions. DEA field office personnel we interviewed said they did not
recall any instances where a lower priority case received aviation support
instead of a higher priority case.

      However, we found that unfulfilled requests often are not reported to
the DEA Aviation Division, as required by DEA policy. In addition, we could
not confirm whether requests had been properly prioritized because there is
no requirement for field offices to document the prioritization of competing
requests. The DEA also does not advise aviation and field office enforcement
personnel on factors to consider in instances where the prioritization of
aviation support requests becomes necessary.

      While allowing DEA enforcement personnel to contact anyone within
the supporting Aviation Division office to request aviation support facilitates
quick response, this practice gives great discretion to individual Special
Agent Pilots in the request approval process. Further, as noted above, the
DEA does not require enforcement management to be involved at the point
of the initial aviation support request; instead, the DEA relies on the
assumption that DEA enforcement management will be involved
appropriately. These practices, the underreporting of unfulfilled requests for
aviation support, and the lack of guidance for prioritizing aviation resources,


                                      vi
increases the risk of inconsistent application of limited resources by giving
the Special Agent Pilot the opportunity to approve or deny requests without
ensuring aviation and enforcement management concurrence. Senior DEA
officials stated at the audit close-out meeting that standard DEA practice
would assume that any relevant need for aviation support would be
appropriately elevated through field office management. However, this
relies on individual relationships between Special Agents and management
as opposed to a procedural requirement for a standard level of assurance
that aviation support is considered adequately. We therefore recommend
that the DEA require that field office supervisors initiate all aviation support
requests to help ensure that the approval and prioritization of DEA aviation
support is consistent. Additionally, in instances when the prioritization of
competing requests is necessary the DEA should require documentation of
the reason for the decision.

Reporting Aviation Support

      Special Agent Pilots are required to document each use or requested
use of a DEA aircraft with a “DEA Aircraft Mission Report” (mission report).
The mission report captures information regarding the aviation operation
conducted, such as flight crew information, the type of operation, the case
number and G-DEP code for the investigation supported, operation results (if
applicable), and other general information such as the date, time, location,
and length of mission. 2 The Aviation Division enters information from the
mission report form into the Division’s Alliance Aviation Management System
(Aviation Management System).

      During our field work, we found that Special Agent Pilots consistently
completed mission reports for operations they supported. However, in our
review of Aviation Management System data we found numerous instances
in which the correct case file numbers or G-DEP codes were not recorded in
mission reports. There were also instances in which no G-DEP code was
provided on mission reports. Without the correct G-DEP code and case
number, the Aviation Division cannot accurately evaluate how aviation
resources were used to support DEA enforcement efforts.

      It is important for the DEA to obtain accurate and complete
information on fulfilled and unfulfilled requests in order to be able to assess
the demands on its limited aviation resources, evaluate the aviation support
provided, and project its future aviation resource needs. The Aviation

       2
         The Geographical Drug Enforcement Program (G-DEP) code is a code the DEA
assigns to all criminal investigations to classify the violator, the type and amount of drugs,
and the suspected location of criminal activity.



                                              vii
Division currently relies on Special Agent Pilots to document correctly the
support they provide and the requests they did not fulfill. Near the
conclusion of our audit, DEA officials told us that they are working to
automate the mission report form. These officials said they believe that the
automation of the mission report form should reduce data entry errors.
Although the DEA has apparently begun taking steps to cut down on aviation
mission reporting errors, we recommend that the DEA ensure that the
anticipated automated mission report form does not allow important
information, such as case numbers and G-DEP codes, to be omitted.

Unfulfilled Requests for Aviation Support

      To provide aviation support to DEA operations, the Aviation Division
must have aircraft, pilots, and on-board observers readily available.
However, at times, uncontrollable circumstances, such as inclement
weather, can prevent the use of aviation support by DEA ground personnel.
In other cases aviation support may not be provided due to unavailable
aviation resources, such as Special Agent Pilots, observers, or aircraft. In
either circumstance, DEA ground teams may still be forced to execute an
operation without the crucial benefits that aviation support can provide, such
as enhanced agent safety and access to visual information and evidence that
is otherwise inaccessible to DEA teams on the ground. Accordingly, the DEA
should strive to maximize the availability of its aviation resources.

      DEA regulations require that aviation personnel document unfulfilled
requests for aviation support using the same mission report form used to
report information on completed aviation missions. The DEA refers to these
reports as “negative mission reports.” Special Agent Pilots must document
in a negative mission report the reason support was unavailable, such as
weather, aircraft maintenance, or the unavailability of a pilot. The following
exhibit shows the breakdown of the 1,464 non-weather related unfulfilled
aviation requests reported by the DEA for FYs 2009 and 2010. 3




       3
         Because weather is an uncontrollable factor in DEA’s aviation operation we
eliminated from our analysis unfulfilled requests due to inclement weather.


                                            viii
    Unfulfilled Requests for Aviation Support (excluding weather)

                   As Reported by DEA Field Offices

                     Fiscal Years 2009 and 2010




                                      Other
                                      Other
                                       6%
                            Cancelled  6%
                            Operation
                        Other 7%                     Maintenance
                       Priority                         26%
                       Mission
                         9%

                     No Observer
                        10%


                                                     No Aircraft
                           No Pilot Available          No Aircraft
                                                      Available
                                  18%                   Available
                                                         24%
                                                          24%




Source: DEA

      As shown above, 78 percent of the unfulfilled aviation support requests
were not fulfilled because of the unavailability of an aircraft (maintenance­
related or otherwise), pilot, or observer. 4

Field Office Reporting of Unfulfilled Aviation Requests

      As noted above, Special Agent Pilots must identify on a mission report
form the reason a request for aviation support was unfulfilled. However, we
found that the mission report form does not define the unfulfilled request
categories listed on the form and does not provide DEA personnel with any
additional guidance to ensure the appropriate category is selected. We
believe that the lack of definitions and guidance on the mission report form

       4
         Observers are in-craft support personnel who provide real time visual surveillance
communicated by radio to ground units, operate video camera systems to document ground
operations, and take photographs for pre-mission planning.



                                                ix
has resulted in inconsistent use of the form by Aviation Division personnel.
Out of 76 reports we reviewed from FYs 2009 and 2010, we found
12 instances when the “other” category was selected instead of a more
specific choice on the mission report form, such as “no aircraft available.”
We also found instances where pilots selected “other” when the aircraft was
unavailable due to maintenance, leading to likely underreporting in the
“maintenance” category. 5

       In addition to inconsistent use of the DEA’s mission report form, we
also found that some DEA field offices are likely underreporting unfulfilled
requests for aviation support. During our review we found that some field
offices reported all unfulfilled requests while others only reported instances
when a mission was scheduled and subsequently cancelled. Accurate and
consistently reported information regarding unfulfilled requests will assist the
Aviation Division in projecting aviation program needs and assessing the
causes of aviation resource deficiencies.

      During our audit Aviation Division management stated that the DEA
does not formally analyze data from negative mission reports. The Special
Agent in Charge of the DEA Aviation Division stated that there is a benefit to
analyzing information contained in the negative mission reports. At the
audit close-out meeting, DEA officials stated that the DEA did analyze this
data on an informal, ongoing basis, using monthly reports that summarize
data on DEA aviation operations. We found that these reports provide
Aviation Division management with snapshots of aviation data for a single
month, for each pilot and for each aircraft. However, we believe that these
reports are limited in value, as they do not afford the DEA an understanding
of any trends in unavailable resources or provide insight into the effects of
unavailable aviation resources.

      Near the conclusion of our audit, the DEA distributed a June 6, 2011,
memorandum to all Aviation Division employees that emphasized the
importance of providing complete and accurate information on the mission
report form. The memorandum acknowledged that our audit revealed
instances where data was either inaccurate or missing. The memorandum
further stated, as noted earlier, that the DEA is in the process of automating
the mission report form and that it anticipates the electronic format will
simplify the process and help minimize the likelihood of data entry errors.

       We appreciate the Aviation Division’s effort to emphasize to DEA field
offices the importance of consistent and accurate reporting. However, we do
not believe that improving the data collection of unfulfilled request data
alone is sufficient. We believe that the DEA must utilize this information to
       5
          DEA officials told us that aircraft can be unavailable for non-maintenance reasons,
including instances where a specific type of aircraft is requested but unavailable.


                                              x
more accurately project aviation program needs and assess causes of any
aviation resource deficiencies. We recommend that the DEA revise its
mission report form to include definitions or guidance for personnel to refer
to when identifying the reason for not fulfilling a request for aviation
support. Additionally, we recommend that the DEA perform a formal
periodic analysis of its unfulfilled aviation support request data to more
accurately identify the causes of and any trends in aviation resource
deficiencies and to assist in projecting aviation program needs.

Special Agent Pilots

        As of June 2011 the DEA had 112 allocated positions for Special Agent
Pilots, with only 4 of these positions vacant. Despite the low Special Agent
Pilot vacancy rate, Special Agent Pilots reported 122 instances in FY 2009
and 146 instances in FY 2010 where aviation support requests were not
fulfilled due to Special Agent Pilot unavailability. Special Agent Pilots and
enforcement personnel at DEA field offices we visited reported to us that
pilots were frequently unavailable to fly missions even though these offices
had filled all of their allocated Special Agent Pilot positions.

      The Aviation Division uses temporary duty (TDY) assignments to help
meet the operational needs of its domestic and foreign offices. These
assignments temporarily relocate Special Agent Pilots from their assigned
domestic offices and, in some offices, contribute to unfulfilled aviation
support requests. Although many of the TDY assignments are performed on
an as-needed basis, the Aviation Division has certain recurring TDY
assignments, including providing aviation support to the DEA’s drug-related
operations in Afghanistan, drug interdiction efforts in the Commonwealth of
The Bahamas, and aviation operations in South America. Also, between
June and October of each year the DEA details Special Agent Pilots
throughout the United States to assist in the DEA’s annual Cannabis
Eradication operation.

      During our audit we found instances where some Special Agent Pilots
performed extensive TDY assignments which removed them for extended
periods of time from their assigned domestic offices. According to Aviation
Division officials, the DEA does not formally analyze the effect of TDY
assignments on its domestic operations. Instead, at our close-out meeting,
the DEA informed us that they informally review the potential effects on
domestic operations before making TDY assignments. However, we believe
that a regular formal review of unfulfilled aviation requests in conjunction
with a review of TDY assignments can assist the Aviation Division in limiting
the effect of pilot TDY assignments.

     In addition, negative mission reports document only when a pilot’s
unavailability resulted in an unfulfilled aviation request, not why a pilot was


                                       xi
unavailable. As a result, unavailability due to TDY assignments is not
captured. We believe more detailed information about why Special Agent
Pilots are reported to be unavailable can assist the Aviation Division when
allocating its resources. Therefore, in addition to reporting pilot
unavailability, we recommend that the DEA require field offices to report the
reason why the pilot is unavailable when reporting on unfulfilled aviation
requests.

Aviation Observers

       On-board observers are frequently required during DEA operational
aviation missions and are used to communicate with ground teams during
flight missions and to track targets. Observers also operate specialized
photographic equipment that provides greater observational and recording
capabilities. Such equipment requires special skills and training.

       At times, DEA Special Agents and other DEA personnel act as aviation
observers when needed. As of December 2010 the DEA had eight contract
observers in seven DEA office locations. Our analysis showed that the
locations using contract observers realized a decrease in instances where an
unavailable observer resulted in the denial of aviation support. However, in
June 2011, DEA officials informed us that the contract observer program
would soon be eliminated due to budgetary constraints. The elimination of
the contractor observer positions could increase the number of unfulfilled
requests, particularly in the seven locations that had contract observers.

       In FYs 2009 and 2010 there were 148 reported instances of unfulfilled
aviation support requests due to unavailable observers. In addition, Aviation
Division officials as well as many DEA Special Agents and Special Agent
Pilots indicated that a lack of qualified observers affects the availability of
aviation support. During our close-out meeting, DEA officials informed us
that they have in the past and plan to continue to utilize agents on a
volunteer basis to supply aviation observers for aviation operations. Given
the necessity of observers during aviation missions, the elimination of the
contract observer program, and the number of reported unfulfilled aviation
requests due to observer unavailability, we recommend that the DEA identify
and train a sufficient cadre of observers to minimize the occurrence of
unfulfilled aviation support requests due to observer unavailability.
Furthermore, we believe the DEA should completely capture the instances
when an unavailable observer prevents aviation support from being
provided, which will assist the DEA in identifying the areas of most
significant need.




                                      xii
Aircraft

      We found that the most frequent reason cited for unfulfilled aviation
support requests during FYs 2009 and 2010 was maintenance, which is listed
as a separate category on the mission report form. 6 In FY 2010, we found
that 42 aircraft were grounded for maintenance more than 20 percent of the
time, including 6 aircraft that were available less than 60 percent of the
time. In addition to maintenance, DEA pilots also reported unfulfilled
request data in another category referred to as “unavailable aircraft.”
According to DEA officials and our review of the negative mission report
data, DEA pilots used the unavailable aircraft category to capture unfulfilled
missions due to maintenance as well as other circumstances, including
instances where a specific type of aircraft, such as a helicopter, was
requested but unavailable.

      In its 2009 aircraft replacement plan, the Aviation Division described a
methodology for replacing aging aircraft while standardizing the fleet over a
period of 10 years. However, the DEA’s replacement plan does not
specifically describe how it would standardize its fleet through replacement.
As of April 2011, the DEA’s fleet consisted of 16 different types of aircraft,
including 12 types of aircraft being operated in domestic field offices. As of
December 2010, the DEA’s fleet ranged from 2 years to over 35 years old.
In addition, according to the DEA, implementing the plan would require
$9 million in additional annual funding for each year of the 10-year
replacement initiative.

       We believe that the standardization of DEA aircraft has many benefits,
including lower training costs and increased standardization of maintenance,
which is likely to yield lower time and money costs. Standardizing the DEA’s
fleet would also allow the Aviation Division to operate and use its resources
more efficiently and effectively. However, due to budget constraints and the
fiscal climate, a replacement plan that relies on significant budget
enhancements may be difficult, if not impossible, to realize. We therefore
recommend that the Aviation Division revise its aircraft replacement plan in
line with its current budget and the goal of standardizing its fleet.




      6
         DEA aircraft is maintained in accordance with manufacturer recommendations,
which typically require scheduled maintenance at regular intervals. In addition,
maintenance is performed on DEA aircraft for specific performance problems.



                                          xiii
Aviation Security and Safety

       The DEA’s Aviation Division maintains aircraft in 40 locations across
the country. In each of these locations the DEA’s aviation program is a
covert operation with knowledge of aviation asset locations generally limited
to DEA personnel. However, despite the covert nature of these operations,
in 24 of these locations DEA aircraft are stored in hangar spaces shared with
commercial organizations or private individuals. In one location we visited,
which is known for a high-level of drug trafficking activity, DEA personnel
noted that the individuals and organizations sharing commercial hangar
space with the DEA changed often and that the DEA did not control who had
access to the hangar. Therefore, there is a risk that DEA aircraft could be
stored with aircraft owned by individuals or organizations involved in drug
trafficking.

       When we discussed shared hangar space with Aviation Division
officials, they stated that maintaining DEA aircraft in private hangar space is
not cost effective and is unnecessary. However, we believe that housing
aircraft in shared hangar space places these high-dollar resources, as well as
the Special Agent Pilots and crew who fly in them, in jeopardy. The
potential for sabotage and the safety of the DEA’s aviation assets must be
considered along with any cost savings resulting from utilizing shared hangar
space. Although it may not be practical for the Aviation Division to secure
private hangar space in all situations, we recommend that the DEA examine
the possibility of obtaining private hangar space or sharing hangar space
with other law enforcement agencies to help defray the costs and improve
aviation personnel and asset security.

      Although DEA aviation operations are conducted covertly, in
March 2011 we found in a search of FAA aircraft registration records that
25 DEA aircraft were not registered to fictitious or cover organizations.
When we asked DEA officials about its procedures for registering aircraft,
they stated that the policy had changed back and forth over the years, with
some administrations requiring the use of covert registration and others not.
These individuals informed us that the DEA currently wants most of its
domestic-based aircraft to be registered covertly and is now in the process
of doing so. However, as of September 7, 2011, 13 DEA aircraft that should
be registered covertly still were not. The DEA stated that it was in the
process of covertly registering all appropriate aircraft.

       Also, DEA officials informed us that Special Agent Pilots were not
required to prepare formal pre-flight risk assessments of factors such as
weather conditions and pilot fatigue. When we asked Aviation Division
officials why formal pre-flight risk assessments are not required, we were


                                      xiv
told that all Special Agent Pilots should informally assess risks prior to each
mission and should brief the crew on identified risks prior to takeoff. The
DEA provided to us a flight risk checklist that covered several areas of risk
affecting an aviation mission. However, the checklist does not include a
means of objectively quantifying the overall level of risk, and, again, Special
Agent Pilots are not required to document a formal risk assessment. At the
audit close-out meeting the DEA stated that it planned to implement a
formalized pre-flight risk assessment, which we believe will help the DEA
ensure that its pilots consistently consider all pre-flight risks.

Conclusion and Recommendations

      We found that overall, in FYs 2009 and 2010, DEA aviation assets used
for domestic operations supported DEA priority cases the majority of the
time. However, we found that lower priority cases received more aviation
support than higher priority cases in some DEA domestic field offices.

       We believe the discretion afforded to Special Agent Pilots, not
requiring field office supervisor involvement in initial aviation request
procedures, the lack of formal prioritization criteria, not requiring
documented justification for supporting one request over another, and the
inconsistent reporting of unfulfilled aviation support requests increases the
risk that DEA aviation resources are not used to support the highest priority
enforcement operations. Further, it is important for the DEA to have
accurate and complete information regarding fulfilled and unfulfilled requests
for aviation support to assess the demands on its limited aviation resources,
evaluate the aviation support provided, project its future aviation resource
needs, and inform its decisions regarding aviation resource location and
usage. In addition, we believe the DEA can improve the safety and security
of its aviation personnel and assets by evaluating the security of DEA assets
stored in hangars shared with privately-owned aircraft, by covertly
registering its aircraft, and through the institution of a mandatory,
documented pre-flight risk assessment.

       Our audit resulted in 11 recommendations to help the DEA enhance
the management of its aviation operations. This report includes
recommendations to improve the DEA’s aviation request procedures,
including our recommendation that the DEA require field office supervisors to
initiate aviation support requests and that it document the decisions for
prioritizing competing requests. In addition, we recommend that the DEA
improve its aviation data collection efforts and perform periodic, trend-based
analyses of its unfulfilled aviation support request data to more accurately
identify the causes of aviation resource deficiencies and to assist in
projecting aviation program needs. We also make recommendations related


                                      xv
to better securing DEA aviation assets and better ensuring the safety of its
aviation personnel.




                                     xvi

 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S

               AVIATION OPERATIONS


                                      TABLE OF CONTENTS

INTRODUCTION ....................................................................................1

  DEA Aviation Resources ...................................................................................2

    Aviation Fleet...............................................................................................2

    Special Agent Pilots and Observers .................................................................2

  DEA Aviation Division.......................................................................................4

  OIG Audit Approach.........................................................................................6


FINDINGS AND RECOMMENDATIONS....................................................7


FINDING I: USE OF DEA AVIATION ASSETS TO SUPPORT

           DEA OPERATIONS ............................................................7

  Use of DEA Aviation Assets...............................................................................7

    Domestic Aviation Operations ........................................................................7

    Aviation Support at Field Offices .....................................................................9

    Foreign-based Aviation Operations................................................................12

  Aviation Support Requests and Prioritization .....................................................13

  Reporting Aviation Support.............................................................................16

  Conclusion....................................................................................................17

  Recommendations .........................................................................................18


FINDING II: DEA AVIATION RESOURCES ...........................................19

  Unfulfilled Requests for Aviation Support ..........................................................19

    Field Office Reporting of Unfulfilled Aviation Requests .....................................21

  Special Agent Pilot Availability ........................................................................24

    Temporary Duty Assignments ......................................................................24

    Special Agent Pilot Training..........................................................................29

  Observer Availability......................................................................................31

  Unavailable Aircraft and Maintenance...............................................................33

    Maintenance ..............................................................................................33

  Aviation Fleet................................................................................................36

    Replacement Plan .......................................................................................38

 Shared Hangar Space ....................................................................................39

 Aircraft Registration.......................................................................................41

 Pre-Flight Risk Assessment.............................................................................41

 Conclusion....................................................................................................42

 Recommendations .........................................................................................43

STATEMENT ON INTERNAL CONTROLS................................................45


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS..........46


APENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY .......................47

 Objective .....................................................................................................47

 Scope and Methodology .................................................................................47

 Prior OIG Report ...........................................................................................49



APENDIX II - THE DEA'S RESPONSE TO THE DRAFT AUDIT REPORT ...50


APENDIX III - OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

           AND SUMMARY OF ACTIONS NECESSARY

           TO CLOSE THE REPORT ...................................................57

                                INTRODUCTION

       The Drug Enforcement Administration (DEA) has 309 offices located
both domestically and internationally. The DEA’s Special Agents, Diversion
Investigators, Intelligence Analysts, and other personnel in these offices and
in DEA headquarters offices work to prevent the illicit trafficking of drugs to
and within the United States. The DEA’s aviation program provides valuable
assistance to these efforts, helping to enhance the effectiveness, safety, and
efficiency of DEA operations, domestically and internationally. For fiscal
year (FY) 2010, the DEA aviation program had an annual budget of
$47.6 million.

      DEA aviation resources predominantly are used to support DEA
enforcement and intelligence operations, such as providing aerial assistance
to surveillance operations, supporting DEA enforcement operations, assisting
land and water interdiction efforts, and performing reconnaissance. DEA
aviation resources are also used for administrative purposes, such as
transporting evidence, equipment, and personnel in a timely fashion.

      In FYs 2009 and 2010, DEA data indicates that DEA pilots flew over
24,000 flights and logged 63,000 flight hours. As Exhibit I-1 shows, over
50,000 of these flight hours were in support of operational matters, of which
74 percent supported DEA domestic operations, while 26 percent supported
international operations.

                                   Exhibit I-1

                           DEA Aviation Flight Hours

                          Fiscal Years 2009 and 2010

                                                      Administrative
                                                       1,590 hours
                                                       (3 percent)

                     Operational                         Maintenance
                     50,454 hours                        3,171 hours
                     (80 percent)                         (5 percent)
                                                            Training
                                                          7,786 hours
                                                          (12 percent)




Source: DEA Aviation Division data



                                        1
DEA Aviation Resources

       The Aviation Division maintains a fleet of aircraft and employs trained
Special Agent Pilots and in-flight support personnel to advance the DEA’s
efforts to disrupt and dismantle drug trafficking enterprises. DEA aviation
and enforcement personnel stated that DEA aviation resources provide
critical support to operations, adding invaluable perspective during
enforcement operations, assisting in evidence collection, and mitigating the
risks to the safety of DEA personnel, confidential sources, and the public.

Aviation Fleet

      As of May 2011 the DEA’s aviation fleet was comprised of 92 aircraft in
multiple aircraft categories, including single and multi-engine propeller
airplanes, multi-engine jet aircraft, and single and multi-engine helicopters.
As of December 2010, the DEA’s fleet ranged from 2 years to over 35 years
old. DEA Special Agent Pilots are required to complete specific training and
maintain certification in each aircraft they fly for the DEA. Ten of the DEA’s
92 aircraft are stationed in 5 foreign countries: Afghanistan, the
Commonwealth of The Bahamas, Colombia, Mexico, and Peru. Domestically,
aircraft are located in 40 locations throughout the United States. Exhibit I-2
shows the various types of DEA aircraft and their respective locations.

                                    Exhibit I-2

                                   DEA Aircraft

                                Type and Locations

                                  as of May 2011

                                              Domestic         International
           Type of Aircraft                   Location           Location
                      Single engine              49                    0
   Fixed Wing         Multi-engine                7                    8
                      Multi-engine Jet            2                    0
                      Single engine              19                    0
   Helicopter         Multi-engine
                                                  5                    2

                                     Total       82                  10
Source: DEA Aviation Division

Special Agent Pilots and Observers

      As of June 2011 the DEA employed 108 Special Agent Pilots. DEA
policy requires that all Special Agent Pilots serve a minimum of 2 years as a


                                         2

Special Agent before flying for the DEA. According to DEA officials, the
investigative experience gained as a Special Agent is important in providing
competent aviation support to enforcement operations. The DEA also
supplements its Special Agent Pilot force through the use of contract pilots,
who assist with training and perform certain foreign-based DEA aviation
operations. 1

       Each DEA aviation mission must have a designated commander
certified to fly the particular aircraft being used. A designated Aircraft
Commander is responsible for the safe operation of the aircraft and is the
final authority regarding any operation of the aircraft. To be designated as
an Aircraft Commander for a particular aircraft, a Special Agent Pilot must
successfully complete a DEA Standardization Flight Check in that type of
aircraft and have the concurrence of their supervisor. 2 A DEA Special Agent
Pilot can be certified to act as an Aircraft Commander in multiple aircraft
categories; however, the Special Agent in Charge of the DEA Aviation
Division must authorize a pilot to be an Aircraft Commander in more than
two pressurized turbine-powered aircraft of different manufacture. 3

       DEA pilots who have not yet satisfied all of the requirements to be
designated as an Aircraft Commander may command a DEA aircraft as a
Pilot in Command (PIC). The PIC designation is a temporary designation
that is limited to 90 days or 50 flight hours. Before earning the PIC
designation a Special Agent Pilot also must complete a DEA Standardization
Flight Check.

      According to DEA policy, although all aircraft will be operated by a
properly designated commander, the type of crew required will vary
depending on the category of the aircraft and the type of mission. For
example, DEA policy states that all surveillance operations will include a
Special Agent Pilot responsible for the safe operation of the aircraft and an
observer responsible for conducting the surveillance.


       1
         Contract pilots support DEA aviation operations in Afghanistan, the Commonwealth
of The Bahamas, Colombia, Mexico, Peru, and Puerto Rico. As of December 2010, the DEA
had 12 contract pilots active in these locations.
       2
           Aircraft Commanders must also meet the following certification requirements:
(1) a commercial pilot certificate; (2) an instrument rating; (3) airplane category rating;
(4) appropriate class rating, and/or type rating; and (5) a current second class medical
certificate. Aircraft Commanders must also possess sufficient flight hours for the specific
type of aircraft for which they are being designated as an Aircraft Commander.
       3
         The DEA fleet contains the following aircraft which are considered pressurized,
turbine-powered aircraft: Citation, ATR-42, King Air 350, and a Lear Jet.


                                              3

       On-board observers assist pilots during missions by communicating
with ground teams to help track the target or an operation. In addition,
observers operate specialized photographic and recording equipment that
provides greater observational capabilities. This equipment requires special
skills and training.

DEA Aviation Division

      DEA’s aviation operations are managed by the Aviation Division, which
is headquartered at the Aviation Operations Center in Fort Worth, Texas.
The Aviation Division centrally manages and oversees all DEA aviation
assets, including pilots, aircraft, and equipment. It is headed by a Special
Agent in Charge, who reports directly to the DEA Chief of Operations. Three
Assistant Special Agents in Charge (ASAC) manage the DEA’s aviation
programs: two ASACs for Aviation Operations who are responsible for the
operational use of aviation assets, and one ASAC for Aviation Operational
Support who primarily is responsible for aircraft maintenance, the Aviation
Division’s Communication Center, and the division’s administrative needs.

      The Aviation Division also has four Aviation Resident Offices (ARO)
managed by Resident Agents in Charge (RAC). The RACs are responsible for
managing the use and operation of aviation assets in these locations and at
other surrounding offices with aviation assets. For instance, the Western
Aviation Resident Office is responsible for aviation operations in California,
Nevada, and Hawaii. The four Aviation Resident Offices include more pilots,
larger fleets, and more specialized aircraft than other DEA field offices. The
Aviation Division has three Area Supervisors located at its headquarters in
Fort Worth, Texas, who also oversee DEA’s domestic aviation operations and
resources located in offices that are not included in the four RACs’ areas of
responsibility, including the Central, Eastern Central, and Mountain Areas.
Exhibit I-3 illustrates the areas of responsibility for the four RACs and three
Area Supervisors.




                                       4

                                 Exhibit I-3

                      DEA Domestic Aviation Operations

                           Areas of Responsibility





Source: DEA Aviation Division

      In addition, the Aviation Division includes other units and personnel
who manage aviation-based intelligence operations, operate some of the
DEA’s more unique aircraft, and oversee strictly foreign-based aviation
operations. For example, the Southeastern Aviation Group provides aviation
support for DEA operations in the Commonwealth of The Bahamas and the
Caribbean. The Group Supervisor located at the Southeastern Aviation
Resident Office supervises nine pilots stationed in the Commonwealth of The
Bahamas and Puerto Rico.

       The Aviation Division also runs its Aviation Communications Center
(Comm Center) at the Aviation Operation Center in Fort Worth, Texas. The
Comm Center serves as the focal point for tracking and monitoring all DEA
aircraft conducting domestic and foreign missions. The DEA’s aircraft are
outfitted with transponders which allow the Comm Center to track and
monitor the DEA’s aircraft positions in real time. In addition, the DEA’s
Special Agent Pilots are required to report flight details, such as the names
of personnel onboard the aircraft, the intended destination, and estimated
arrival time, to the Comm Center prior to each planned flight activity and


                                      5

after a mission is completed. This requirement and the aircraft transponders
allow the DEA to not only monitor where aircraft are at all times, they also
provide for greater safety and quicker location of DEA air assets, both
aircraft and pilots, in case of an emergency.

OIG Audit Approach

       The objective of this audit was to assess the DEA’s management of its
aviation operations. Specifically, we analyzed the usage, prioritization, and
availability of DEA aviation assets, primarily focusing on its domestic based
aviation operations for FYs 2009 and 2010. To accomplish our objective we
performed work at DEA headquarters in Arlington, Virginia, and at the DEA
Aviation Operations Center in Fort Worth, Texas. We also performed
fieldwork at five domestic locations, visiting DEA Aviation Resident Offices
and DEA field offices. 4 We conducted interviews with the DEA’s Chief of
Operations, Chief Financial Officer, Aviation Division Special Agent in Charge,
and other headquarters-level officials and personnel. Additionally, at field
locations, we interviewed DEA aviation personnel, such as Resident Agents
in Charge and Special Agent Pilots, as well as enforcement personnel who
benefit from DEA aviation support, including field office management and
Special Agents.

      In addition, we examined the DEA’s procedures for requesting aviation
support and flight activity data to determine how resources were used to
support priority investigations. We also reviewed a 1995 OIG report on
DEA’s management of its aviation program. 5 Appendix I contains a detailed
description of our audit objective, scope, and methodology.




       4
         In our report, for matters involving the sensitivity of DEA operations we do not use
the names and locations of the DEA aviation and district offices we visited in the field. For
example, for one location we visited, we use Aviation Office A and Field Office A instead of
the actual location and office names.
       5
         U.S. Department of Justice Office of the Inspector General (OIG), Audit of the Drug
Enforcement Administration Management of Aviation Operations, Audit Report 95-29
(August 1995).


                                             6

      FINDINGS AND RECOMMENDATIONS


      I:	   USE OF DEA AVIATION ASSETS TO

            SUPPORT DEA OPERATIONS


      DEA aviation assets generally were used to support priority
      investigations and operations. However, we found that for
      certain DEA field offices, aviation resources were used to
      support non-priority DEA matters most of the time. We
      also found that DEA Special Agent Pilots are given
      discretion to approve or deny aviation support requests.
      Further, the DEA does not require field office
      management’s involvement in the initial aviation support
      request process nor does the DEA require documentation
      of prioritization decisions for competing aviation support
      requests. We believe these factors increase the risk that
      the use of DEA aviation assets may not be prioritized
      appropriately.

Use of DEA Aviation Assets

      DEA headquarters and field office personnel told us that aviation
support significantly benefited DEA investigative and intelligence efforts,
enhancing the safety, anonymity, and effectiveness of DEA operations. In
FYs 2009 and 2010, DEA Special Agent Pilots flew over 50,000 hours during
approximately 18,000 flight missions in support of DEA operational efforts,
in both foreign and domestic locations.

Domestic Aviation Operations

      Domestically, in FYs 2009 and 2010, 74 percent of the DEA’s
operational flight hours supported the DEA’s 21 field divisions and
headquarters program operations. The goal of the DEA’s domestic
enforcement strategy is to disrupt and dismantle the most significant drug,
money laundering, and narco-terrorism related organizations. The DEA
developed its Priority Target Organization (PTO) program to classify its
investigations that target the most significant drug traffickers.

     The DEA must strategically utilize its resources, including its aviation
resources to ensure that PTO cases receive priority attention. In addition to
PTO cases, DEA aviation resources are used for headquarters-derived
operations that require the specialized assistance that the Aviation Division



                                      7

provides. For example, each year between June and October the DEA uses
considerable aviation resources in its Cannabis Eradication operation. In
FY 2010, DEA Special Agent Pilots flew 1,884 hours during 585 missions in
support of this major eradication operation.

     For FYs 2009 and 2010, DEA aviation data indicates that DEA’s overall
domestic aviation efforts supported DEA priority investigations and
operations. As Exhibit 1-1 shows, 61 percent of aviation activity assisting
domestic operational needs supported DEA PTO investigations and
headquarters’ priorities in FY 2009. In FY 2010, this proportion increased to
65 percent.

                                   Exhibit 1-1 6

                           DEA Aviation Mission Hours

                       In Support of Domestic Operations

                           Fiscal Years 2009 and 2010

              Fiscal Year 2009                              Fiscal Year 2010

                                                       8,562
           7,864                                       (46%)
           (42%)                7,187
                                (39%)                                       6,563
                                                                            (35%)



                     3,466                                       3,564
                     (19%)                                       (19%)




           Total Flight Hours = 18,517                 Total Flight Hours = 18,689

            Priority Targets        Headquarters Priority        Non-Priority Targets
Source: DEA Aviation Division

     In FY 2010, approximately 6,500 (20 percent) of the DEA’s over
32,000 investigations were designated as PTO cases; therefore, the majority
of DEA investigations are non-PTO cases. As shown in Exhibit 1-2, the DEA’s
primary use of aviation resources to support priority matters is
commensurate with its utilization of Special Agents on priority cases.
       6
          DEA cases not designated as a PTO or a headquarters priority operation are
classified as non-priority target cases (non-PTO).


                                             8

                              Exhibit 1-2
    Proportion of Aviation Flight Hours, Special Agent Utilization,
     and Cases Worked on DEA Priority and Non-Priority Matters
                          Fiscal Year 2010
              Priority Target and Headquarters Priority   Non-Priority Targets


                                        79%                            80%

              65%




                    35%

                                                   21%          20%




          % Aviation Support        % Special Agent FTE   % Active Investigations


Source: DEA

Aviation Support at Field Offices

       During our audit, we conducted field work at five DEA aviation
locations, and at some of the associated Division Offices. As Exhibit 1-3
illustrates, each of these locations had substantially more non-priority target
cases than priority cases.




                                              9

                               Exhibit 1-3

              DEA Cases Worked by Priority and Non-Priority

                   Targets at OIG-visited Field Offices

                        Fiscal Years 2009 -2010


                     Priority Targets         Non Priority Targets

                                                              1,446
                                          1,337
           1,194
                                                      1,008


                                                                             702
     545
                                    430
                          319
                                                                       173
                     53

   Field Office    Field Office   Field Office        Field Office    Field Office
         C              D              B                   A               E
Source: DEA

       We reviewed aviation activity data for each of the locations we visited
to determine the level of aviation support the field offices received. As
shown in Exhibit 1-4, at two of the five locations we visited (Field Offices A
and C), over 50 percent of the aviation mission hours were flown in support
of priority target operations. In two of the other locations (Field Offices D
and E) headquarters programs received the most aviation support. In Field
Office B, non-priority targets received the majority of the aviation support.




                                        10

                             Exhibit 1-4

          Aviation Support Received by DEA Division Offices

                      Fiscal Years 2009 - 2010

                            Total                    Non-
       Field Division                   Priority                  HQ
                           Missions                 Priority
           Office                       Targets                Programs
                            Hours                   Targets
        Field Office   A     452             337       61         54
        Field Office   B    1,100            377      677         46
        Field Office   C    2,973           1,940     698        335
        Field Office   D     120              24       40         56
        Field Office E        488            66       152        270
        DEA Overall         37,205      16,425      13,750      7,030
     Source: DEA

       To gain a better understanding of the support provided by the Aviation
Division, we reviewed data regarding the support provided by the aviation
office from the beginning of FY 2009 through FY 2010. Because each of
these office’s aviation resources are used to provide support to multiple DEA
offices, we reviewed data regarding the support that was provided by the
aviation office regardless of the office supported. For example, aircraft in
Aviation Office C may provide support to other DEA offices in addition to
Field Office C. Furthermore, aviation resources located at Aviation Office C
could potentially be used to support other operations outside of the Field
Office C area but within the Aviation Resident Office territory.




                                      11

                                 Exhibit 1-5

                      Breakdown of Aviation Support

               Provided to DEA Domestic Mission Areas

                         Fiscal Years 2009 – 2010

                            Total               Non-
                                     Priority              HQ
    Aviation Office 7     Mission              Priority
                                     Targets            Programs
                           Hours               Targets
    Aviation Office A             840           562           165             113
    Aviation Office B            1,574          624           895             55
    Aviation Office C            4,014        2,543          1,081            390
    Aviation Office D             212             87           69             56
    Aviation Office E             528             81          177             270
    DEA Overall                37,205        16,425         13,750          7,030
    Source: DEA Aviation Division

      As Exhibit 1-5 shows, Aviation Office B provided more aviation support
to non-priority target cases than to priority target cases and headquarters
programs combined. Aviation Office E provided more support to non-priority
target cases than priority target cases, with most support from that office
provided to headquarters programs.

       We believe the level of aviation support given to non-priority target
cases by Aviation Offices B and E may be problematic. Although these
offices’ field divisions do not have the same number of priority cases as
some of the DEA’s larger offices, efforts should be made to ensure that
priority cases receive the majority of the aviation support. As we describe in
greater detail below, we could not confirm whether requests had been
properly prioritized in these offices because there is no requirement to
document the prioritization of conflicting requests at the field office level.
Moreover, the DEA does not have guidance that advises DEA personnel
regarding the factors to consider in prioritizing aviation support.

Foreign-based Aviation Operations

      In addition to its domestic aviation operations, the DEA considers its
international aviation operations a significant priority in its efforts to combat
the major drug trafficking enterprises at the sources of drug production and
to prevent large shipments of drugs from entering the United States. The
       7
          The Aviation Offices listed provided support to the DEA offices within their
respective geographical areas of responsibility. For example, Aviation Office A provided
aviation support to the DEA’s Field Office A.


                                            12

DEA’s foreign-based aviation efforts typically involve the operational
transport of personnel and equipment as well as drug trafficking interdiction
operations. In FYs 2009 and 2010, the 4,134 foreign-based aviation
missions accounted for 26 percent of the DEA’s operational flight hours.
Exhibit 1-6 shows investigative flight hours for the DEA’s five foreign offices
with aviation programs: Afghanistan, the Commonwealth of The Bahamas,
Colombia, Mexico, and Peru.

                               Exhibit 1-6

                     Aviation Support Provided to

                    DEA Foreign Based Operations

                      Fiscal Years 2009 and 2010

                                            2009                2010
                                         Mission               Mission
                                          Hours                Hours
    Afghanistan                            1,034                  787
    Central/South America
                                           2,878                2,790
    (Colombia, Mexico, and Peru)
    Operation Bahamas, and
                                           1,358                1,338
    Turks and Caicos Islands (OPBAT)
    Other Foreign Operations               1,578                1,487
                               Total      6,848                 6,402
    Source: DEA Aviation Division


Aviation Support Requests and Prioritization

      As part of our audit, we also examined DEA procedures for requesting
and approving aviation support. DEA Aviation Division policy does not
require formal, written requests for aviation support. We found that initial
requests for aviation support are typically made informally over the phone or
verbally in person, as enforcement personnel identify the need for aviation
support. DEA executive management, Aviation Division leadership, Special
Agent Pilots, and enforcement personnel told us that informal aviation
request procedures allow the DEA to act quickly when unanticipated needs
for aviation assistance materialize.

      Requests for aviation support generally originate from DEA field office
personnel responsible for DEA enforcement operations, typically Special
Agents or their supervisors. A request is submitted, either in writing or
verbally, to the Aviation Division personnel responsible for providing aviation
support to the requesting field office, such as a Special Agent Pilot or
Resident Agent in Charge. Aviation and field office enforcement personnel
determine whether the request can be fulfilled by assessing the availability


                                      13

of aviation resources, evaluating factors concerning the safety and value of
the aviation operation, and determining whether there are competing
requests for aviation support. Although DEA policy requires that all requests
for aviation support involve the appropriate DEA Aviation Division Area
Supervisor or Resident Agent in Charge (RAC), their specific approval is not
required. If the request can be fulfilled, it is approved and the aviation
resources are scheduled.

       During our audit, we found that the Resident Agents in Charge had an
active role in scheduling aviation missions. We were also told that field
office management is generally included during the formal planning stage for
an enforcement operation, which may involve aviation support. Additionally,
RACs and Area Supervisors stated that they are in frequent contact with
Special Agent Pilots at other duty stations and that Special Agent Pilots in
stand-alone locations are required to provide daily briefings of planned
activities to their immediate supervisor, whether a RAC or Area Supervisor.
However, Special Agent Pilots, no matter the type of office, are given
discretion to schedule aviation missions as initial requests are received and
as they determine whether time and resources permit fulfilling a request.

       We found that whether in an Aviation Resident Office or a stand-alone
location, a Special Agent Pilot may deny a verbal request made in the same
conversation without consulting aviation management. RACs, Area
Supervisors, and DEA field office enforcement management can only
prioritize aviation support for requests of which they have knowledge.

       Aviation personnel frequently receive multiple requests for aviation
support for the same time period. DEA personnel told us that conflicts often
are alleviated by adjusting the timeframes of one operation, thereby
allowing both operations to receive aviation support. This is usually handled
by Special Agent Pilots in conjunction with the RAC or Area Supervisor that
oversees the aviation resources in that geographical area of responsibility.

      If adjustments or accommodations cannot be made, DEA policy
indicates that field office management should decide how to prioritize
competing requests from the same DEA field office. When competing
requests originate from different field offices, field office management is
expected to mutually resolve the conflict and determine the prioritization of
the aviation support requests. When deciding between two or more
requests, DEA officials told us that enforcement-based operations typically
are supported before non-enforcement operations. For example, an
undercover meeting with a drug trafficker would receive aviation support
before an intelligence-based reconnaissance mission. Further, aviation staff
stated that operations where safety is a significant factor are considered a


                                     14

top priority, such as operations involving the arrests of subjects and
operations that include undercover agents and confidential informants. DEA
field office personnel we interviewed said they did not recall any instances
where a lower priority case received aviation support instead of a higher
priority case.

       In FYs 2009 and 2010, DEA Special Agent Pilots reported
138 instances in which requests for aviation support were not fulfilled
because aviation resources were being used to support higher priority
missions. 8 However, as stated previously, Special Agent Pilots deny
requests verbally and do not necessarily report all unfulfilled requests. In
addition, we could not confirm whether requests had been properly
prioritized because there is no requirement to document the prioritization of
competing requests at the field office level. Furthermore, the DEA lacks
guidance to assist aviation and enforcement personnel when the
prioritization of aviation support becomes necessary. While allowing DEA
enforcement personnel to contact anyone within the supporting aviation
office to request aviation support facilitates a quick response, this practice
gives great discretion to individual Special Agent Pilots. Further, the DEA
policy does not require field office enforcement management to be involved
at the point of an aviation support request. In addition, DEA enforcement
personnel we interviewed stated that supervisor approval is not required
prior to an aviation support request. These practices, along with the
underreporting of unfulfilled requests for aviation support and the lack of
guidance for prioritizing aviation resources, increases the risk that resources
will be applied inconsistently and without ensuring aviation and enforcement
management’s concurrence of all aviation support requests.

       Senior DEA officials at the audit close-out meeting stated that
standard DEA practice would assume that any relevant need for aviation
support would be appropriately elevated through field office management,
and, if aviation support had been denied informally, field office management
would likely be aware of the denial. However, this approach relies on
individual relationships between Special Agents and management as
opposed to a procedural requirement for a standard level of assurance that
aviation support is considered adequately. We therefore recommend that
the DEA require that field office supervisors initiate all aviation support
requests to best help ensure that the approval and prioritization of DEA
aviation support requests are consistent. Additionally, in instances where
prioritization is necessary the DEA should require documentation of the
reason for the decision.

      8
            In Finding II of this report we discuss the DEA’s reporting of unfulfilled aviation
requests.


                                                 15

Reporting Aviation Support

      Special Agent Pilots are required to document each use or requested
use of a DEA aircraft with a “DEA Aircraft Mission Report” (mission report). 9
The mission report captures information regarding the aviation operation
conducted, such as flight crew information, the type of operation, the case
number and G-DEP code for the investigation supported, operation results (if
applicable), and other general information such as date, time, location, and
length of mission. 10 Special Agent Pilots submit completed mission reports
to their supervisor, who then reviews, signs, and submits the completed
form to the Aviation Division. The Aviation Division enters information from
the form into the Division’s Alliance Aviation Management System (Aviation
Management System). As discussed in more detail in Finding II, the DEA
also uses mission reports to capture data on unfulfilled requests for aviation
support.

         The Aviation Division’s only means of documenting requests for
aviation support is to rely on Special Agent Pilots to document correctly the
support provided as well as to note the requests that could not be fulfilled.
It is important for the DEA to obtain accurate and complete information on
fulfilled and unfulfilled requests in order to be able to assess the demands on
its limited aviation resources, evaluate the aviation support provided, and
project its future aviation resource needs.

      During our field work, we found that Special Agent Pilots consistently
completed mission reports for operations they supported. Additionally, we
found that DEA aviation supervisors reviewed these reports and forwarded
the reports to the DEA Aviation Division. However, in our review of the
Aviation Management System data we found numerous instances in which
the Special Agent Pilots did not record the correct case file number or G-DEP
codes on their mission reports. There were also instances in which no G­
DEP code was provided.



       9
         DEA enforcement also discusses the potential use of aviation resources in the
planning phase of a tactical operation. This is generally documented within the
enforcement’s operation plan, which is created for every tactical operation, if time allows.
However, this documentation is for enforcement use only and may not be reviewed by or
even provided to the Aviation Division.
       10
          The Geographical Drug Enforcement Program (G-DEP) code is a five-character
code the DEA assigns to all criminal investigations to classify the violator, the type and
amount of drugs, and the suspected location of criminal activity.



                                              16

       Without correct case numbers or G-DEP codes, the Aviation Division
cannot fully determine how aviation resources were used in the enforcement
efforts it supports. At the time of our review, one individual was responsible
for inputting all mission data into the Aviation Management System and
there was no quality control process in place to ensure that mission data was
accurately entered into the system. DEA officials told us that some
inaccuracies might be related to data entry mistakes or to instances where
Special Agent Pilots were provided with incorrect data from the case agents.

      Near the conclusion of our audit DEA officials told us that they were
working to automate the mission report form. These officials said they
believed that the automation of the form should reduce such data entry
errors. Although the DEA has apparently begun taking steps to cut down on
aviation mission reporting errors, we recommend that the DEA ensure that
the automated form, currently in development, does not allow important
information, such as the case number and G-DEP code, to be omitted.

Conclusion

       The DEA’s informal aviation support request and approval process
gives Special Agent Pilots the discretion to approve or deny initial aviation
support requests. Likewise, the DEA does not have formal guidance that
establishes criteria for prioritizing aviation requests, nor does the DEA
require documentation as to how competing aviation support requests are
prioritized. These factors increase the risk that DEA aviation resources will
be applied inconsistently.

      We found that DEA Special Agent Pilots consistently completed the
required mission reports documenting fulfilled aviation support requests.
However, we noted inconsistency in reporting unfulfilled aviation support
requests. We also noted instances in which incorrect case file numbers were
entered into the Aviation Management System mission reports, and
instances in which no G-DEP code was provided, as required. Without
correct case numbers or G-DEP code, the Aviation Division cannot fully
determine how aviation resources were used in the investigative efforts it
supports.




                                      17

Recommendations

  We recommend that the DEA:

  1. Require that field office supervisors initiate all aviation support
     requests to help ensure that the approval and prioritization of DEA
     aviation support requests are consistent. Additionally, in instances
     where prioritization is necessary the DEA should require
     documentation of the decision.

  2. Ensure that the automated mission report form (in development as of
     August 2011) does not allow important information, such as case
     numbers and G-DEP codes, to be omitted.




                                    18

     II:   DEA AVIATION RESOURCES

     To provide aviation support to DEA operations, the Aviation
     Division must have aircraft, pilots, and on-board observers
     readily available. Aviation Division data indicates that the
     unavailability of one of these aviation resources accounted
     for approximately 78 percent of the non-weather related
     unfulfilled missions in FYs 2009 and 2010. Overall, we
     determined that temporary duty assignments and
     maintenance issues were some of the reasons DEA
     aviation resources were unavailable.

     In addition, we found that the DEA’s aviation assets are
     generally stored in shared hangar space, increasing the
     security risk to the DEA’s covert aviation operations. We
     also found that several of the DEA’s aircraft were not
     registered covertly to fictitious or cover organizations.
     Because aircraft registration information is readily
     available to the public on the Internet, the DEA must take
     steps to ensure its domestic-based aircraft registrations
     are (and remain) covert to ensure the safety of its aviation
     personnel.     In addition, the DEA should revise its
     replacement initiative to align with current budget realities
     and its goal of standardizing its fleet.


Unfulfilled Requests for Aviation Support

      DEA aviation personnel are required to document unfulfilled requests
for aviation support using the same mission report form used to report
information on completed aviation missions. The DEA refers to these reports
as “negative mission reports.” Special Agent Pilots must document in a
negative mission report the reason support was unavailable, such as
weather, aircraft maintenance, or the unavailability of a pilot.

       According to DEA data, it conducted 13,928 domestic investigative
flight missions in FYs 2009 and 2010. During the same period, DEA data
showed a total of 2,309 unfulfilled requests for aviation support, of which
845 (37 percent) were attributed to inclement weather conditions. Because
weather is an uncontrollable factor in the DEA’s aviation operation, we
eliminated unfulfilled requests due to inclement weather from our analysis.
Exhibit 2-1 shows the breakdown of the remaining reported 1,464 non-
weather related unfulfilled requests for FYs 2009 and 2010.



                                     19

                              Exhibit 2-1

    Unfulfilled Requests for Aviation Support (excluding weather)

                   As Reported by DEA Field Offices

                     Fiscal Years 2009 and 2010



                                      Other
                                       6%
                          Cancelled
                          Operation
                              7%
                                                         Maintenance
                  Other Priority                            26%
                    Mission
                       9%


               No Observer
                  10%



                                                      No Aircraft
                                                         No Aircraft
                       No Pilot Available              Available
                                                          Available
                              18%                        24%24%




Source: DEA

       Aviation resources – aircraft, pilots, and observers – must be readily
available to provide aviation support to DEA operations. As shown above, in
FYs 2009 and 2010, 78 percent (or 1,139) of the non-weather-related
unfulfilled aviation support requests were due to the unavailability of an
aircraft (maintenance-related or otherwise), pilot, or observer. 11 According
to DEA personnel, DEA ground teams may still execute an operation without
aviation support, but they proceed without the benefits that aviation support
can provide, particularly enhanced agent safety and access to visual
information and evidence that is otherwise inaccessible to Special Agents on
the ground. Accordingly, the DEA should strive to maximize the availability
of its aviation resources.
       11
          Observers are in-craft support personnel who provide real-time visual surveillance
communicated by radio to ground units, operate video camera systems to document ground
operations, and take photographs for pre-mission planning.


                                              20

Field Office Reporting of Unfulfilled Aviation Requests

       As noted above, Special Agent Pilots must identify on a mission report
form the reason a request for aviation support was unfulfilled. The DEA’s
mission report form allows Special Agent Pilots to select from a standard list
of reasons when preparing a negative mission report: (1) weather, (2) no
pilot available, (3) no aircraft available, (4) maintenance, (5) other priority,
(6) stand-by, and (7) “other.” 12 However, we found that the mission report
form does not define these categories and does not provide DEA personnel
with any additional guidance to ensure the appropriate reason is selected
when preparing a negative mission report.

       We believe that the lack of definitions and guidance on the mission
report form has resulted in inconsistent use of the form by aviation division
personnel. For the 76 reports from FYs 2009 and 2010 where the “other”
category was selected, we found 12 instances where a more specific choice
on the mission report form was a better selection, such as “no aircraft
available.” For example, on one of the negative mission reports we
reviewed where the category “other” was selected, the explanation in the
comments field stated “no helicopter available.” We also found instances
where pilots selected “other” when the aircraft was unavailable due to
maintenance, leading to likely underreporting in the “maintenance” category.
Accurate data that identifies reasons for unfulfilled aviation requests can
assist the DEA in understanding systemic resource limitations and better
enable it to make more informed resource allocation decisions. Therefore,
we recommend that the DEA revise its mission report form to include
definitions or guidance for personnel to refer to when identifying the reason
for not fulfilling a request for aviation support.

       In addition to inconsistent use of the DEA’s mission report form, we
also found that some DEA field offices are likely underreporting unfulfilled
requests for aviation support. During our review we found that some field
offices reported all unfulfilled requests while others only reported instances
when a mission was scheduled and subsequently cancelled. For example,
some Special Agent Pilots told us that they did not submit negative mission
reports when they denied a verbal request for aviation support. One Special
Agent Pilot stated that he did not submit negative mission reports for
unfulfilled requests because he did not believe these reports were analyzed

       12
          DEA officials informed us that the “stand-by” option refers to occasions where
Special Agent Pilots are committed to an operation with an undetermined start time, but
receive requests for aviation support for smaller or lower priority operations while waiting
for the operation to begin. In our analysis of the FYs 2009 and 2010 negative mission
report data, there were no reported instances of “stand-by” as a reason for an unfulfilled
request.


                                              21

by aviation management. In contrast, the sole pilot assigned to support
Field Office D stated that for any request – written or verbal – he recorded
the request on a mission report form and reported negative missions to the
Aviation Division.

       Exhibit 2-2 shows the differences in the reporting of unfulfilled
requests for aviation support in FY 2010 among the five aviation offices we
visited during this audit. As shown below, Aviation Office D reported a total
of 87 unfulfilled aviation requests in FY 2010, while much larger offices that
flew many more missions reported far fewer unfulfilled requests. These
offices included Special Agent Pilots and aviation program managers who
stated that not all unfulfilled requests for aviation support were reported to
the Aviation Division.

                                Exhibit 2-2

            Negative Mission Report Data (excluding weather)

               For the Five DEA Offices Visited by the OIG

                             Fiscal Year 2010


                     Aviation Aviation Aviation Aviation         Aviation
                      Office   Office   Office   Office           Office
                        A        B        C        D                E
    Total Aircraft      2         4            7         1           1
    Total Pilots        5         7            6         1           1
    Total
                       127       228          611       23          62
    Missions

                      Field     Field        Field    Field       Field
                      Office    Office       Office   Office      Office
                        A         B            C        D           E
    Unavailable
                       38         3           25        43           3
    Aircraft
    Unavailable
                        0         2            4        40           4
    Pilot
    Unavailable
                        0         2           24         0           3
    Observer
    Other               1         4           13         4           3
    Total
    Unfulfilled        39         11          66        87          13
    Requests
   Source: DEA


                                       22

       We also note that the reasons reported for unfulfilled requests varied
greatly among the field offices we visited. For example, as shown in
Exhibit 2-2 Aviation Office A reported no instances of unfulfilled aviation
requests due to pilot unavailability in FY 2010, while approximately
97 percent of its unfulfilled requests resulted from unavailable aircraft during
this time. In contrast, pilot unavailability was responsible for approximately
46 percent of the reported unfulfilled requests for Field Office D and almost
31 percent of the unfulfilled requests for Field Office E. The Resident Agent
in Charge of the respective Aviation Resident Office stated that there is a
shortage of pilots in the region, including Aviation Office A. According to this
official, over the last 20 years the number of pilots has not kept pace with
the growing number of DEA Special Agents. Therefore, it appears
inconsistent to us that Aviation Office A reported no instances of unfulfilled
aviation requests due to pilot unavailability in FY 2010 for Field Office A.

      The differences in the number of reported unfulfilled requests and
statements by DEA field personnel demonstrate that the DEA negative
mission report data is incomplete and inconsistently reported by DEA pilots.
Further, during our audit Aviation Division management stated that the DEA
does not formally analyze negative mission reports. The Special Agent in
Charge of the Aviation Division stated that there is a benefit to analyzing
information contained in the negative mission reports, such as helping to
assess aviation resource needs. At the audit close-out meeting, DEA officials
stated that the DEA did analyze this data on an informal, ongoing basis,
using monthly reports summarizing aviation operations. We reviewed these
reports and found that they provide Aviation Division management with
snapshots of aviation data for a single month, for each pilot and for each
aircraft. However, we believe that these reports are limited in value, as they
do not afford the DEA an understanding of any trends in unavailable
resources or provide insight into the effects of unavailable aviation
resources. For instance, further analysis of the monthly report data along
with analyses of aviation operational data would provide the DEA insight into
any effect unavailable resources had on the level of aviation support
provided to particular DEA field offices.

       Accurate and consistent information on unfulfilled requests could assist
the Aviation Division to project aviation program needs and assess the
causes of aviation resource deficiencies. Near the conclusion of our audit,
the DEA provided us with a copy of a memorandum (dated June 6, 2011)
distributed to all Aviation Division employees that emphasized the
importance of providing complete and accurate information on the mission
report form. The memorandum acknowledged that our audit revealed
instances where data was either inaccurate or missing. The memorandum
further stated that the DEA is in the process of automating the mission


                                      23

report form and that it anticipates that the electronic format will simplify the
process and help minimize the likelihood of data entry errors.

       We recognize the Aviation Division’s effort to emphasize to DEA field
offices the importance of consistent and accurate reporting. However, we do
not believe that improving the data collection of unfulfilled request data
alone is sufficient. Therefore, we recommend that the DEA perform a
periodic analysis of its unfulfilled aviation support request data to more
accurately identify the causes of and any trends in aviation resource
deficiencies and to assist in projecting aviation program needs.

Special Agent Pilot Availability

       As of June 2011 the DEA had 112 allocated positions for Special Agent
Pilots, with only 4 vacancies. Despite the low Special Agent Pilot vacancy
rate, Special Agent Pilots reported 122 instances in FY 2009 and 146
instances in FY 2010 where aviation support requests were not fulfilled due
to Special Agent Pilot unavailability. Special Agent Pilots and enforcement
personnel at DEA field offices we visited reported to us that pilots were
frequently unavailable to fly missions even though these offices had filled all
of their allocated Special Agent Pilot positions.

Temporary Duty Assignments

       The Aviation Division uses temporary duty (TDY) assignments to help
meet the operational needs of its domestic and foreign offices. These
assignments temporarily relocate Special Agent Pilots from their assigned
domestic offices and, in some offices, contribute to unfulfilled aviation
support requests. As shown in Exhibit 2-3, the Aviation Division uses
recurring TDY assignments to provide aviation support to the DEA’s drug-
related operations in Afghanistan, drug interdiction efforts in the
Commonwealth of The Bahamas, and aviation operations in South America.
Also, between June and October of each year the DEA details Special Agent
Pilots throughout the United States to assist in the DEA’s annual Mobile
Cannabis Eradication Response Team (Cannabis Eradication).




                                       24

                                Exhibit 2-3

                  DEA Special Agent Pilot Utilization for

              Recurring Special Operation TDY Assignments 13

                        Permanent Pilot Allocation            Temporary           Total
     Operation           DEA Special         Contract        Duty Special         Pilots
                         Agent Pilots         Pilots         Agent Pilots        Utilized
   South America                7                  3                 4 14           10
    Afghanistan                 0                  3                 2               5
    Operation
 Bahamas, Andros,
                                0                  2                 3               5
 Turks and Caicos
     (OPBAT)
      Cannabis
                                0                  0                 6               6
    Eradication 15
       TOTAL                    7                  8               15               26
Source: DEA

      Three of the DEA’s special missions (Cannabis Eradication,
Afghanistan, and OPBAT) do not have permanently assigned, full-time
Special Agent Pilots. Instead, the DEA fills these operational vacancies with
Special Agent Pilots on a TDY basis and with contract pilots. The DEA may
have up to 15 or more Special Agent Pilots temporarily assigned to special
missions at various times of the year. We found that in most cases, Special
Agent Pilots volunteer for TDY assignments; however, if there are not
enough volunteers, Aviation Division officials will assign Special Agent Pilots.

       Furthermore, the DEA’s special operations may require specific
aircraft, such as helicopters or larger fixed wing aircraft to transport
personnel and equipment. Because not all DEA Special Agent Pilots can fly
all types of DEA aircraft, the number of Special Agent Pilots that can fill
certain types of TDY assignments is smaller than the total number of DEA
Special Agent Pilots. In such cases, the pilot pool is limited to Special Agent
Pilots with the necessary aviation skills to fly the specialized aircraft used for
       13
          DEA aviation management does not maintain an ongoing schedule for domestic
TDY assignments because these are conducted on an as needed basis; therefore, we did not
include them in Exhibit 2-3.
       14
        Pilots on the South America TDY schedule travel only as necessary to fill in for
permanently stationed Special Agent Pilots on leave or otherwise unavailable.
       15
          A DEA Area Supervisor estimated that the FY 2010 operation required 1,756 flight
hours, or 6 Special Agent Pilots per week for 40 hours a week for approximately 5 months.
Our analysis found that in FY 2010, Special Agent Pilots actually flew 1,884 hours in support
of the DEA’s Cannabis Eradication operation.


                                             25

these operations. For example, in FY 2010, 28 DEA pilots were certified to
fly the 5 King Air fixed-wing aircraft used in the DEA’s Afghanistan- and
South America-based operations. The King Air is a multi-engine fixed wing
aircraft that requires two pilots to operate.

       In FY 2010, the DEA had one pilot assigned to Aviation Office D.
However, we found that only 32 percent of this pilot’s aviation mission hours
supported Field Office D, while the remaining 68 percent of his mission hours
supported other DEA offices and special operations. From the end of June
through August 2010 the Aviation Office D pilot was temporarily assigned to
the DEA’s Cannabis Eradication initiative, and he also provided support to
other DEA field offices, including 14 days in July and 10 days in August. As
illustrated in Exhibit 2-4, this pilot’s TDY assignments correlated with a
significant decrease in the level of aviation support provided to the DEA Field
Office D in July.




                                      26

                             Exhibit 2-4 16

Aviation Office D Total Mission Hours and Special Agent Pilot Mission 

               Hours Flown in Support of Other Offices

                               FY 2010


                                Aviation Office D Overall Mission Hours
                                Pilot Mission Hours in Support of Other Offices

                 50

                 45

                 40

                 35

                 30
 Mission Hours




                                                                                               Pilot provided
                 25                                                                            support for DEA
                 20
                                                                                               special
                                                                                               operations in
                 15                                                                            November 2009
                 10
                                                                                               and in June, July
                                                                                               and August
                  5                                                                            2010.
                  0
                  Aug-09   Oct-09   Dec-09   Jan-10     Mar-10     May-10   Jun-10   Aug-10   Sep-10
                 -5
                                                      Month-Year
* The Aviation Office D aircraft was down for maintenance for 15 days in November 2009,
the entire months of June, July, and August in 2010, and 11 days in September 2010.
However, substitute aircraft was utilized for some Field Office D operations during June,
July, August, and September 2010 while the aircraft was down for maintenance.
Source: DEA

       In addition, we found that in FY 2010, one Special Agent Pilot flew 69
percent of his hours in support of other offices and special operations while
flying only 31 percent of his hours in support of his assigned office. Nearly
half of these total mission hours in FY 2010 supported special operations,
including OPBAT and Cannabis Eradication. We also found that an Aviation
Office B-based Special Agent Pilot flew 55 percent of his total mission hours
in support of OPBAT in FY 2010.



                      16
           Pilot mission hours in support of other offices includes all mission hours in support
of other offices, including flight time spent on special operations such as OPBAT and for
training assignments.


                                                                 27

      According to Aviation Division officials, the DEA does not formally
analyze the effect of TDY assignments on its domestic operations. Instead,
at our close-out meeting the DEA informed us that they informally review
the potential effects on domestic operations before making TDY
assignments. However, we believe that a regular review of unfulfilled
aviation requests in conjunction with a review of TDY assignments can assist
the Aviation Division in determining the actual effect these assignments
have on the level of aviation support provided to domestic enforcement
operations. This knowledge can assist the DEA in limiting the effect of pilot
TDY assignments.

       In addition, negative mission reports document only when a pilot’s
unavailability resulted in an unfulfilled aviation request, not why a pilot was
unavailable. As a result, unavailability due to TDY assignments is not
captured. We believe more detailed information about why Special Agent
Pilots are reported to be unavailable can assist the Aviation Division when
allocating its resources. Therefore, in addition to reporting pilot
unavailability, we recommend that the DEA require field offices to report the
reason why the pilot is unavailable when reporting on unfulfilled aviation
requests.

        As of December 2010, the DEA had 15 contract pilots, 12 of which
perform operational duties in foreign locations. 17 These contract pilots
decrease the number of Special Agent Pilots needed to support its foreign
operations. Contract pilots do not have law enforcement authority and
therefore cannot fully assume the role of a Special Agent Pilot. These pilots
are also contractually limited in the number of hours they can work, while
Special Agent Pilots are limited by DEA regulations in the hours they can
fly. 18 While we do not believe that contract pilots should replace Special
Agent Pilots on all recurring TDY assignments, the use of contract pilots on
these missions can alleviate the denial of aviation support requests by
decreasing the need for Special Agent Pilot TDY assignments away from their
regularly assigned domestic offices.




       17
          The remaining three contract pilots are located at the Aviation Operations Center
in Fort Worth, Texas.
       18
          DEA regulations require that a flight crew receive 10 hours of uninterrupted rest
in a non-duty status when, during a 14 hour period of continuous official duty a 1-pilot flight
crew reaches 8 hours, and when a 2-pilot crew reaches 10 hours of flight time. Finally, DEA
Special Agent Pilots cannot fly more than 6 consecutive days without 24 hours of
uninterrupted time off from flight duties.


                                              28

Special Agent Pilot Training

       Training requirements are another constraint on pilots being available
for operational purposes. According to DEA data, DEA pilots expended
7,786 flight hours in FYs 2009 and 2010 fulfilling training obligations. DEA
aviation personnel told us that in many cases pilots complete training
requirements in conjunction with an operational mission, such as either
before or after providing support to the scheduled operation. Combining
training with operational-related activities helps alleviate the adverse effect
that training requirements can have on a pilot’s availability.

      Special Agent Pilots must complete annual training and maintain
currency requirements to ensure compliance with Federal Aviation
Administration requirements. All Special Agent Pilots are required to receive
an Aircraft Commander designation in each aircraft they are expected to
operate. Training requirements vary from one aircraft to another, and if a
Special Agent Pilot is an Aircraft Commander in more than one aircraft he or
she must comply with training requirements for each type of aircraft
separately.

       On average, DEA Special Agent Pilots maintain Aircraft Commander
status in three different aircraft. However, we found certain Special Agent
Pilots maintain certifications in as many as eight different aircraft. When we
asked DEA officials whether this situation was necessary or advisable they
stated that while pilots may be noted as being certified in multiple aircraft,
they may not necessarily be current or fly these aircraft on a regular basis.

       As we discuss later in the report, as of May 2011 the DEA had
16 different types of aircraft in its fleet, including 12 different types of
aircraft throughout its domestic field offices. 19 Maintaining pilot certification
requires significant training time and monetary costs, which are
compounded by numerous aircraft. Therefore, we recommend that the DEA
perform a regular analysis of Special Agent Pilot certifications and determine
the necessary number of certified pilots for each type of aircraft based on
historical and projected aircraft usage. Limiting the number of aircraft
certifications per pilot may free up additional operational flight time that
might otherwise be spent on unnecessary training requirements.




       19
           According to a DEA official, although there were 16 different aircraft in the DEA
fleet, once a pilot is trained in the specifics of the Cessna 206, Cessna 206H and Cessna
210, these aircraft are treated as similar for certification purposes.


                                              29

       Checkrides

       A Special Agent Pilot must satisfactorily complete an initial DEA
standardization flight check, or “checkride,” for each aircraft the pilot intends
to operate as an Aircraft Commander. 20 Checkrides are also required for a
pilot to maintain certification in the aircraft they command. As of June
2011, the DEA had 8 contract instructor pilots and 28 Special Agent Pilots
who administered checkrides, which is a volunteer, collateral duty for DEA
Special Agent Pilots. 21 The DEA does not allow Special Agent Pilots from the
same office to give each other checkrides except in limited circumstances.
Therefore, in most cases, TDY assignments for checkrides are necessary.
Generally, these TDY assignments require about 3 days for the pilot to travel
and complete the checkride requirements. We were told by DEA officials
that on average, Special Agent Pilots conduct one to two checkrides per
month.

       According to DEA data, one Special Agent Pilot flew 40 percent of his
mission hours in FY 2010 giving checkrides to fellow DEA Special Agent
Pilots. An additional 8 percent of his mission hours were spent flying
checkrides to maintain his currency. Therefore, although this pilot’s location
is only supported by two Special Agent Pilots, almost 50 percent of one
pilot’s mission hours were spent on training in FY 2010. The Special Agent
Pilot assigned to the Field Office D flew 34 percent of his mission hours in FY
2010 on training, with 15 percent providing checkrides to other DEA pilots
and 19 percent for checkrides to maintain his certifications. With only one
pilot in Aviation Office D, when this Special Agent Pilot is on temporary
assignment to conduct checkrides, Field Office D is without aviation support
unless another pilot is brought into Aviation Office D on a TDY assignment.

       According to the DEA, when it assigns a Special Agent Pilot to conduct
a checkride, it takes into account several factors, including travel time and
the impact on the local office. However, the DEA is unable to determine the
full impact of training on aviation operations because, as noted earlier, field
office aviation personnel are not required to report the reason why a pilot
was not available when preparing negative mission reports.



       20
          A checkride consists of a pilot being examined while flying the aircraft to
demonstrate competency in the skills required for operation of the aircraft. To maintain
currency, DEA Special Agent Pilots must complete instrument approaches, holding
procedures, night and daytime takeoffs and landings, among a myriad of other training
maneuvers.
       21
       This collateral duty may be removed either by Special Agent Pilot request or by
management directive.


                                             30

       Although training requirements are generally unavoidable, they can
limit pilot availability. We believe the DEA should capture this data because
more detailed information about why Special Agent Pilots are reported to be
unavailable can assist the Aviation Division when allocating its limited
resources and evaluating the overall operations of the aviation program.

Observer Availability

       On-board observers are frequently required to fly in the aircraft during
DEA operational aviation missions. Observers are used to communicate with
ground teams during flight missions and to track targets. Observers also
operate specialized photographic equipment that provides greater
observational and recording capabilities. Such equipment requires special
skills and training. At times, DEA Special Agents or other DEA personnel act
as aviation observers as a collateral duty when needed.

       Aviation Division officials told us they recognized that the lack of
qualified observers is an obstacle to maximizing aviation support. Beginning
in FY 2008, the Aviation Division began hiring contract observers to help
alleviate this issue. 22 As of December 2010 the DEA had eight contract
observers in seven DEA office locations. All of the contract observers we
spoke with had law enforcement backgrounds.

       Despite these efforts, many DEA Special Agents and Special Agent
Pilots expressed concerns to us that the continued lack of qualified observers
affects the availability of aviation support. As shown earlier in Exhibit 2-1, in
FYs 2009 and 2010, there were 148 reported instances of unfulfilled aviation
support requests because observers were unavailable. However, as with
other data on unfulfilled requests for aviation support, we believe that this
number is likely underreported. During our audit, DEA personnel told us
that enforcement personnel frequently call Special Agent Pilots prior to a
mission to informally explore the possibility of aviation support. However,
even if a pilot is available, if an observer is required for the mission and no
observer is available (including any ground personnel willing and able to act
as the observer), then aviation support will not be provided. DEA personnel
told us that such instances often do not result in an official request for
aviation support, and therefore the reason for not providing support is not
captured on a DEA mission report.

     Aviation Offices D and E each have one assigned Special Agent Pilot
and no permanent observers; therefore, the field division must provide an
observer for aviation missions. Of these two offices, only Aviation Office E
        22
             Three contract observers were added in FY 2008, two in FY 2009, and three in FY
2010.


                                              31

reported instances where an unavailable observer caused requests for
aviation support to be denied (three instances during FYs 2009 and 2010).
The other three aviation office locations we visited have contract observers,
a dedicated Special Agent acting as an observer, or both. However, Exhibit
2-5 shows that these offices still reported unfulfilled aviation support
requests due to observer unavailability. Together, in FY 2009, these three
locations accounted for 64 percent of the total number of reported instances
where an observer was unavailable. In FY 2010, these three offices
accounted for 37 percent of the total.

                              Exhibit 2-5

   Unfulfilled Request for Aviation Support - Unavailable Observer

                       For Field Offices A, B, C

                     Fiscal Years 2009 and 2010

        Office             Dedicated
                                                 FY 2009                FY 2010
      Supported            Observers

     Field Office A            2                     6                     0

     Field Office B            1                     4                     2

    Field Office C 23          2                    40                     24

   Source: DEA

      While field offices with contract observers realized a decrease in
instances where an unavailable observer caused the denial of aviation
support, DEA officials stated that cost concerns and budgetary limitations
hindered the DEA’s ability to provide contract observers for all locations.
Then, near the conclusion of our audit in June 2011, DEA officials informed
us that the contract observer program would soon be eliminated due to
budgetary constraints. The elimination of these observer positions could
have a significant effect on aviation operations in the locations where
observers are located. During our audit close-out meeting, DEA officials
informed us that they have in the past and plan to continue to utilize agents
on a volunteer basis to supply aviation observers for aviation operations.

      Given the necessity of observers during aviation missions, the
elimination of the contract observer program and the number of reported
unfulfilled aviation requests due to observer unavailability, we recommend
that the DEA identify and properly train a sufficient cadre of observers to
minimize the occurrence of unfulfilled aviation support requests due to
observer unavailability. Furthermore, we believe the DEA should completely

      23
          One observer was an Aviation Division-funded contract observer while the other
was a Field Office C-based Special Agent detailed as an observer.


                                           32

capture the instances when an unavailable observer prevents aviation
support from being provided, which will assist the DEA in identifying the
areas of most significant need.

Unavailable Aircraft and Maintenance

      As previously illustrated in Exhibit 2-1, maintenance was the most
frequent reason for unfulfilled aviation support requests during FYs 2009 and
2010. In addition to maintenance, DEA pilots also reported unfulfilled
request data in a separate category referred to as “unavailable aircraft.”
According to DEA officials and our review of the negative mission report
data, the unavailable aircraft category was used to capture unfulfilled
missions due to maintenance as well as other circumstances, including
instances where a specific type of aircraft, such as a helicopter, was
requested but unavailable.

Maintenance

       Appropriate maintenance is crucial to the safety of DEA aviation
personnel and is a necessary and costly aspect of the DEA’s aviation
program. During this audit we reviewed maintenance schedules for DEA’s
fleet for FYs 2009 and 2010.

      In FY 2009, 28 percent of the reported unfulfilled aviation requests
(excluding weather-related matters) were due to aircraft maintenance. 24 In
FY 2010, this figure decreased to 24 percent. The Aviation Division officials
stated that the DEA maintains its aircraft in accordance with federal
regulations as well as manufacturers’ guidance and inspection programs. In
addition, as needed the DEA performs maintenance on its aircraft for specific
performance problems. The size and the complexity of the aircraft affects
the amount of time required to ensure aircraft are maintained appropriately.
The DEA divides its maintenance programs into phases performed at specific
intervals according to the type of aircraft and the number of hours the
aircraft is flown.

      We analyzed the FY 2009 and 2010 maintenance schedules for DEA
aircraft. As shown in Exhibit 2-6, we found that 70 of the 109 aircraft
available in FY 2009 were operational more than 80 percent of the time.
However, in FY 2010 this number dropped to 58 of the 100 available



      24
         The unfulfilled mission request data does not document if maintenance was
scheduled or unplanned.



                                          33

aircraft. 25 In addition, we found that 42 aircraft were grounded due to
maintenance more than 20 percent of the time in FY 2010, including 6
aircraft that were available less than 60 percent of the time.

                                 Exhibit 2-6
                        DEA Operationally Ready Aircraft
                  Percentage of Time
                                                  FY 2009       FY 2010
                       Available

                      100% to 80%                   70              58

                       79% to 60%                   33              36

                       59% or less                   6               6

                      Total Aircraft               109             100

               Source: DEA Fleet Replacement Initiative

      We also reviewed the age and aircraft type of the five least available
fixed wing aircraft and the five least available helicopters during FY 2010.
The DEA Fleet Replacement Plan cites 25 years as the age an aircraft should
be replaced, which is commensurate with Department of Justice guidance.
As shown in Exhibit 2-7, one DEA fixed wing plane and three helicopters in
the DEA’s fleet are more than 25 years old. The remaining four fixed wing
aircraft have an average age of 14 years, while the remaining two
helicopters have an average age of only 10 years.




       25
           The reduction in the number of aircraft available from FY 2009 to FY 2010 was
primarily due to the disposal of some DEA-owned aircraft and the expiration of leases for
other aircraft.


                                            34

                                    Exhibit 2-7

             Five Least Available Fixed Wing Aircraft and Helicopters

                                 Fiscal Year 2010


                                                        Percentage
                                     Aircraft                        Aircraft Age
      Type of Aircraft                                    of Days
                                     Location                          (years)
                                                         Available
                    Single engine   San Diego 26           56%            11.7
      FIXED WING




                    Single engine     Conroe               56%            34.9

                    Multi-engine    Fort Worth             58%            14.0
                    Multi-engine    San Diego              63%            11.1
                                       Fort
                    Multi-engine                           63%            18.9
                                    Lauderdale
                    Multi-engine    Fort Worth             36%            25.9
      HELICOPTERS




                    Single engine     Conroe               59%            33.9
                    Single engine   Long Beach             61%            34.9

                    Single engine     Atlanta              64%            11.4

                    Single engine     Fairfield            65%              9.1
      Source: DEA

      Overall, we found that the Aviation Office D-based aircraft was only
available for 26 percent, or approximately 3 months, of FY 2009. Aviation
Office D only has one assigned aircraft, which meant either that a substitute
aircraft had to be supplied to the location, or that enforcement agents
operated without aviation support for approximately 9 months in FY 2009
because of aircraft unavailability due to maintenance. This same aircraft
was down for maintenance for 3 months in FY 2010.

      During our field work, DEA Field Office D enforcement officials
expressed frustration at the prolonged maintenance periods and a
perception that this caused aviation support to be unavailable or difficult to
obtain. We reviewed the Field Office D mission activity and aircraft
availability for FYs 2009 and 2010 to determine if the extended periods of
maintenance affected Field Office D operations. We found that in FYs 2009

       26
        This aircraft was assigned to the San Diego Field Office until April 2010 when it
was moved to the St. Louis Field Office.


                                                  35

and 2010 other DEA aircraft were flown in support of this office’s
enforcement efforts while its assigned aircraft was down for maintenance.

      We also reviewed the availability of the two aircraft assigned to
support the DEA’s Field Office A and its task force enforcement operations.
We found that these two aircraft were unavailable due to maintenance
approximately 40 percent of FY 2010 and that other aircraft were utilized to
support operations approximately 58 percent of the time. We identified 1
month, December 2009, in which 100 percent of the mission hours to
support Field Office A and its task force were flown by other aircraft. During
December 2009, one assigned aircraft was unavailable the entire month
while the other was available for approximately only half of 1 day. There
were only 2 months during FY 2010 in which the assigned two aircraft were
responsible for more than 50 percent of the mission hours: July 2010 (57
percent) and August 2010 (63 percent).

       The high number of unfulfilled requests due to unavailable aircraft in
the Aviation Office D in FY 2010, and the amount of hours flown by other
aircraft in support of Field Office A and its task force indicate that the
Aviation Division’s efforts to supply substitute aircraft may be more reactive
than proactive. As its aircraft continue to age, it may be difficult for the DEA
to secure parts or mechanics able to service the aircraft. Certain aircraft
have a higher tendency toward mechanical failure as well. The Aviation
Division should use its knowledge of the aircraft in its fleet and maintenance
status information to strategically place its aircraft to ensure DEA field
offices are not without aviation capability for extended periods of time.

Aviation Fleet

      Single-engine fixed wing aircraft and single-engine helicopters serve as
DEA’s primary operational aircraft. Additionally, the DEA has larger, multi-
engine airplanes and specialty planes and helicopters used for transport,
interdiction, and other specific purposes. As of May 2011, the DEA had
16 different types of aircraft. Special Agent Pilots are required to obtain and
maintain a unique certification for each aircraft they operate. Exhibit 2-8
provides details on the number of DEA aircraft commanders per DEA aircraft
type.




                                      36

                                 Exhibit 2-8

                 DEA Aircraft Commanders per DEA Aircraft 

                        Fiscal Years 2009 and 2010

                                                                        Total Number of
                                  Aircraft            Aircraft             Aircraft in
                                Commanders          Commanders             DEA Fleet
 Aircraft Type                    FY 2009             FY 2010           December 2010
 Cessna 206, Cessna
                      27
 206H, and Cessna 210
 Fixed Wing                          71                   86                   43
 Cessna 206 Soloy
 Fixed Wing                          15                   14                    5
 Cessna 208
 Fixed Wing                          4                     3                    1
 King Air 350
 Fixed Wing                          31                   28                   13
 ATR-42
 Fixed Wing                          3                     6                    2
 Cessna Citation
 Fixed Wing                          7                     5                    1
 Learjet 60
 Fixed Wing                          4                     3                    1
 Eurocopter AS-350
 Helicopter                          23                   26                    7
 MBB 105
 Helicopter                          12                    6                    3
 Bell 206LIII
 Helicopter                          4                     4                    1
 Bell 407
 Helicopter                          20                   20                    5
 Bell 412
 Helicopter                          24                   25                    5
 MD-500D/MD-500E
 Helicopter                          27                   38                    6
 MD-902
 Helicopter                          2                     2                    1
Source: DEA Aviation Division

      Between FY 2005 and December 2010 the DEA’s Aviation Division
eliminated three types of aircraft and its acquisitions have generally added
aircraft types already present in its fleet. The aircraft fleet transactions
included the disposal of 29 aircraft, through sales and lease expirations, as
well as the acquisition of 31 aircraft (21 fixed wing planes and 10



       27
           Special Agent Pilots need to be initially certified to fly each of the following:
Cessna 206, Cessna 206H, and the Cessna 210. However, after initial certification, a
Special Agent Pilot need only maintain currency on one within the group as they are treated
as similar aircraft.


                                            37

helicopters) through purchases and leases. 28 The DEA also added some
aircraft to its fleet by transferring seized aircraft into aviation operations. As
of May 2011 the DEA’s fleet contained 12 different aircraft throughout its
domestic field offices, as well as 4 additional specialized aircraft located in
Fort Worth, Texas.

       We believe the multiple types of aircraft in the DEA’s fleet contribute
to aviation resource availability issues. Most Special Agent Pilots maintain
certification in an average of three types of aircraft, each with varying
training requirements. Despite the DEA’s efforts to mitigate the effect of
training on operational need, pilots must commit time to complete these
requirements, which can affect their availability to support operations.

Replacement Plan

       In its 2009 aircraft replacement plan, the Aviation Division described a
methodology for replacing aging aircraft while standardizing the fleet over a
period of 10 years. The first stage of the plan focuses on replacing all
aircraft older than 25 years, consistent with a Department of Justice
recommendation. The second stage covers the replacement of King Air 350s
over the age of 25 years at the rate of one per year, and the final stage calls
for ongoing fleet replacement and enhancement. However, the DEA’s
replacement plan does not state specifically how it would standardize its
fleet through replacement. Exhibit 2-9 illustrates the aircraft age
distribution of the DEA fleet as of December 2010.

                                     Exhibit 2-9

                                 DEA Aircraft by Age

                                As of December 2010

                     Aircraft Age            Fixed Wing        Helicopter
               25 or more years old                19                6
               20 to 24 years old                   5                3
               10 to 19 years old                  21                4
               Less than 10 years old              21                15
               Total                               66               28
              Source: DEA Fleet Replacement Initiative

      The DEA stated that implementing the plan would require $9 million in
additional annual funding for each year of the 10-year replacement initiative.

       28
          In addition to these 31 aircraft, as of February 2011, the DEA was in contract
negotiations for 6 additional fixed wing aircraft.


                                             38
We believe that the standardization of DEA aircraft has many benefits,
including lower training costs and increased standardization of maintenance,
which is likely to mean less maintenance time and to yield cost savings.
Standardizing the DEA fleet would also allow the Aviation Division to operate
and use its resources more efficiently and effectively. We recognize,
however, that budget constraints and the fiscal climate may make a
replacement plan that relies on significant budget enhancements difficult, if
not impossible, to realize.

       In the absence of being able to implement its replacement initiative,
we recommend that the DEA revise its aircraft replacement plan in line with
its current budget and the goal of standardizing its fleet. The DEA should
continue to consider alternative, low cost strategies to minimize the effect of
its multi-type, aging fleet on its day to day operations and maintenance
needs. For example, one strategy that DEA officials used in the past was to
sell aircraft, either intact or part by part, and use the proceeds to purchase
one or more new aircraft.

Shared Hangar Space

       The DEA’s Aviation Division maintains aircraft in 40 locations across
the country. In each of these locations the DEA’s aviation program is a
covert operation with knowledge of aviation asset locations generally limited
to DEA personnel. However, despite the covert nature of these operations,
DEA aircraft are generally stored in hangar spaces shared with commercial
organizations or private individuals. Shared hangar space is commonly
managed by fixed-base operators, which are companies that lease hangar
space for profit and therefore lease space to as many aircraft as they can fit
in a hangar. This arrangement requires frequent movement of aircraft by
fixed-base operator staff to retrieve aircraft as requested by customers.
This frequent movement of aircraft increases the risk of both intentional and
unintentional damage to DEA aircraft.

       We were told by DEA officials that 24 of the 40 locations with aviation
resources share hangar space with commercial organizations or private
individuals. Four of the five locations we visited utilized such shared hangar
space.




                                      39

       We believe the practice of sharing hangar space with private
enterprises compromises the security of DEA aviation personnel and assets.
Although we observed security measures such as surveillance cameras and
access-controlled office space and gates, we also noted that shared hangars
were open and potentially accessible to unauthorized individuals. Even if
aircraft are locked when not in use, if the hangar is open and unauthorized
individuals have unescorted access, the opportunity to vandalize DEA
aviation resources exists. DEA field office officials expressed general
concerns over the use of shared hangars and reported a preference for a
dedicated hangar for DEA aviation resources. However, most of these
officials stated that dedicated hangars were too costly to be a viable option
for aircraft storage.

       During our field work, we asked DEA aviation staff if they were aware
of any security incidents related to DEA aircraft. DEA officials at multiple
field offices reported instances of aircraft dings and scratches due to fixed-
base operator staff moving the aircraft in and out of hangars. These
incidents were rarely reported by fixed-based operator staff at the time of
the incident and were often discovered by DEA Special Agent Pilots in pre­
flight checks or by mechanics. Unreported fixed-base operator damage to
DEA aircraft could cause a potential safety risk to the integrity of DEA
aircraft.

       In one location we visited, which is known for a high-level of drug
trafficking activity, DEA personnel noted that the individuals and
organizations sharing commercial hangar space with the DEA changed often
and that the DEA did not control who had access to the hangar. Therefore,
there is a risk that DEA aircraft could be stored with aircraft owned by
individuals or organizations involved in drug trafficking. The DEA’s own
aviation handbook points out the potential for sabotage and vandalism and
states that aircraft “are often the target of interstate theft organizations….
Additionally, DEA [Special Agent Pilots] may be targeted by DEA defendants
and drug trafficking organizations.” DEA officials also informed us that DEA
aircraft at this location were vandalized while stored in the shared hangar.
Security cameras were subsequently installed at this location and no further
vandalism was reported. Nevertheless, this shared hangar arrangement
poses a significant security threat and highlights why we believe the DEA
must consider alternative solutions to shared hangar space whenever
possible.

      DEA Aviation Division officials stated that maintaining DEA aircraft in
private hangar space is not cost effective and is unnecessary. However, we
believe that housing aircraft in shared hangar space places these
multimillion dollar resources, as well as the Special Agent Pilots who fly
them, in jeopardy. The potential for sabotage and the safety of the DEA’s


                                      40

aviation assets must be considered along with any cost savings resulting
from utilizing shared hangar space.

      Although it may not be practical for the Aviation Division to secure
private hangar space in all situations, we recommend that the DEA actively
examine the possibility of obtaining private hangar space or sharing hangar
space with other law enforcement agencies to help defray the costs and
improve aviation personnel and asset security.

Aircraft Registration

       Aviation resources are frequently used during DEA undercover
operations. In addition, with the increased use of aircraft by law
enforcement in general, criminal subjects are becoming increasing aware of
surveillance aircraft. If spotted and identified as a DEA aircraft through its
registration or tail number, the safety of Special Agents or confidential
informants might be compromised. Maintaining a covert identity is therefore
critical to operational safety because aircraft registration information is
readily available on the Internet.

      To help protect the identity of aviation assets as DEA property, the
DEA uses covert identities and fictitious names for the registration of
domestic-based aircraft and the signage at Aviation Resident Offices.
However, in March 2011 we found in a search of FAA aircraft registration
records that 25 domestic-based DEA aircraft that should have been
registered covertly to fictitious or cover organizations but that were not.
When we asked DEA officials about its procedures for registering aircraft,
they stated that the policy had changed back and forth over the years, with
some administrations requiring the use of covert registration and others not.
These individuals informed us that the DEA wanted most of its domestic-
based aircraft to be registered covertly and was in the process of doing so.
However, as of September 7, 2011, 13 DEA aircraft that should be
registered covertly still were not. Therefore, we recommend that the DEA
ensure that all appropriate DEA aircraft are registered covertly with the FAA.

Pre-Flight Risk Assessment

       We identified an additional safety concern regarding the lack of a
requirement that Special Agent Pilots complete a pre-flight risk assessment
prior to take off. One Special Agent Pilot acknowledged that he formerly
used a risk assessment worksheet that served as a tool to help assess prior
to takeoff the multiple variables that could affect a flight. According to this
pilot the form is not required and he has since committed it to memory so he
no longer uses it. The DEA provided to us a flight risk checklist that covered


                                      41

several areas of risk affecting an aviation mission. However, the checklist
does not include a means of objectively quantifying the overall level of risk,
and, as stated previously, Special Agent Pilots are not required to use it.

       When we asked Aviation Division officials why a formal documented
pre-flight risk assessment is not required of Special Agent Pilots, they told us
that all Special Agent Pilots informally assess risks prior to each flight and
should be briefing the crew on the risks prior to takeoff. These officials told
us that the Aviation Division relies on the professionalism of its pilots and
that responsible pilots do not need to formalize their assessment of the risks
associated with each flight.

       We believe the DEA should reconsider this approach, and at the audit
close-out meeting the DEA stated that it planned to implement a formalized
pre-flight risk assessment. Formal pre-flight risk assessments will compel
pilots to consider before takeoff all risk factors affecting the safety of a
mission, such as pilot fatigue and weather conditions. While we understand
that many of DEA’s Special Agent Pilots are highly experienced and do not
necessarily need a checklist or a worksheet to understand pre-flight risks,
we believe that applying an informal pre-flight risk assessment process could
lead to key risk factors being inadvertently overlooked. In our opinion, the
potential benefit of formalizing this pre-flight process greatly outweighs the
inconvenience of making a minor change to the pre-flight routines of Special
Agent Pilots. We recommend that the DEA complete its plan to require a
formal pre-flight risk assessment procedure, which must adequately
document and objectively quantify the Aircraft Commander’s assessment of
the level of risk associated with a DEA flight.

Conclusion

       The unavailability of DEA pilots, observers, and aircraft accounted for
the majority of non-weather related unfulfilled aviation support requests.
Many different variables appear to have contributed to aviation resources
being unavailable, including TDY assignments and maintenance. However,
the DEA does not have a complete understanding of the effect of these
unavailable resources because its field offices do not consistently report
unfulfilled aviation requests. In addition, when such information is reported,
the reason why the asset was unavailable is not captured. For example,
when a field office reports that an aviation request was not fulfilled because
of an unavailable pilot, the office does not report whether the pilot was
unavailable due to a TDY assignment, scheduled or unscheduled leave,
training, or some other reason. Therefore, we believe the DEA should
include definitions or guidance for personnel to refer to when completing
negative mission reports and it should require field offices to report the


                                      42

reason why the resource was unavailable. Collecting and analyzing complete
data on unfulfilled aviation requests should provide the DEA with a better
understanding of the challenges they face and help to anticipate division
offices’ needs, allowing for more effective and efficient use of its aviation
resources.

       Furthermore, we believe the DEA’s Aviation Division must continually
try to find alternate ways to maximize its resources in the absence of an
approved aircraft replacement and standardization plan. We recognize that
meeting the aviation needs of thousands of Special Agents in 40 locations
throughout the United States with only 92 aircraft is a difficult task. As
many of the Special Agents we interviewed stated, the Aviation Division does
its best to meet the DEA’s aviation needs, but it cannot realistically fulfill
every request. Therefore, we believe that the DEA should continue to
consider alternative, low cost strategies to minimize the effect that its aging
fleet has on day to day operations and maintenance needs. The DEA should
also revise its aircraft replacement plan in line with its current budget and
fleet standardization goals.

      The DEA must also take additional steps to protect its pilots and
aviation assets. The use of shared hangar space increases the risk of
intentional and unintentional damage to DEA aircraft. Therefore, we believe
that the DEA should seek to obtain secure, private hangar space whenever
possible. In addition, the Aviation Division should actively examine the
possibility of co-locating DEA aviation assets in hangar space with other law
enforcement agency aviation assets to help defray costs and improve asset
security. Lastly, because it is easy for the general public to find aircraft
registration information through a simple Internet search, for all appropriate
domestic-based aircraft the DEA should ensure that its aircraft are registered
covertly.

      Additionally, we recommend that the DEA implement a mandatory,
formal risk assessment to be performed prior to each aviation mission. A
formalized assessment will compel DEA pilots and crew to always consider all
possible pre-flight risks in an objective manner.

Recommendations:

We recommend that the DEA:

   3.   Revise its mission report form to include definitions or guidance for
        personnel to refer to when completing negative mission reports.




                                      43

4.	   Perform a periodic analysis of its unfulfilled aviation support request
      data to more accurately identify the causes of and trends in aviation
      resource deficiencies and to assist in projecting aviation program
      needs.

5.	 Require field offices to report the reason why the aviation asset is
    unavailable when reporting on unfulfilled aviation requests.

6.	 Perform a regular analysis of Special Agent Pilot certifications and
    determine the necessary number of certified pilots for each type of
    aircraft based on historical and projected aircraft usage.

7.	 Identify and properly train a sufficient cadre of observers to minimize
    the occurrence of unfulfilled aviation support requests due to
    observer unavailability.

8.	 Revise its aircraft fleet replacement plan in line with its current
    budget and the goal of standardizing its fleet. Further, the DEA
    should continue to consider alternative, low cost strategies to
    minimize the effect that its aging fleet has on day to day operations
    and maintenance needs.

9.	 Actively examine the possibility of obtaining private hangar space or
    sharing hangar space with other law enforcement agencies to help
    defray costs and improve aviation personnel and asset security.

10. Ensure that all appropriate DEA aircraft are registered covertly with
    the Federal Aviation Administration.

11. Implement a mandatory, formal pre-flight risk assessment that
    adequately documents and objectively quantifies the Aircraft
    Commander’s assessment of the level of risk associated with a flight
    before takeoff.




                                     44

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the DEA’s internal controls was
not made for the purpose of providing assurance on its internal control
structure as a whole. DEA management is responsible for the establishment
and maintenance of internal controls.

       Through our audit testing, we did not identify any deficiencies in the
DEA’s internal controls that are significant within the context of the audit
objective and based upon the audit work performed that we believe would
affect the DEA’s ability to effectively and efficiently operate, to correctly
state financial and performance information, and to ensure compliance with
laws, regulations, and other applicable requirements.

      Because we are not expressing an opinion on the DEA’s internal
control structure as a whole, this statement is intended solely for the
information and use of the auditee. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                      45

                STATEMENT ON COMPLIANCE WITH

                    LAWS AND REGULATIONS


      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
DEA’s management complied with federal laws and regulations, for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. DEA management is responsible for ensuring compliance with
applicable federal laws and regulations. In planning our audit, we identified
the following regulations that concerned DEA’s aviation operations and that
was significant within the context of the audit objective:

      •   41 C.F.R. § 101-37 (2011)
      •   41 C.F.R. § 102-33 (2011)

      Our audit included examining, on a test basis, the DEA’s compliance
with the aforementioned regulations that could have a material effect on
DEA’s aviation operations, through interviewing personnel, analyzing data,
assessing internal control procedures, and examining procedural
practices. Nothing came to our attention that caused us to believe that
the DEA was not in compliance with the aforementioned regulations.




                                      46

                                                                           APPENDIX I

              OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

      The objective of this audit was to assess the DEA’s management of its
aviation operations. Specifically, we analyzed the usage, prioritization, and
availability of DEA aviation assets, primarily focusing on its domestic-based
aviation operations for FYs 2009 and 2010.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

       To accomplish our objective we performed work at DEA headquarters
in Arlington, Virginia, and at the DEA Aviation Operations Center in Fort
Worth, Texas. We also performed fieldwork at five domestic locations,
visiting DEA Aviation Resident Offices and DEA field offices. 29 We conducted
interviews with the DEA’s Chief of Operations, Chief Financial Officer,
Aviation Division Special Agent in Charge, and other headquarters-level
officials and personnel. Additionally, at field locations, we interviewed DEA
aviation personnel, such as Resident Agents in Charge and Special Agent
Pilots, as well as enforcement personnel who benefit from DEA aviation
support, including field office management and Special Agents.

     In addition, we examined the DEA’s procedures for requesting aviation
support and flight activity data to determine how resources were used to
support priority investigations.




       29
           In our report, for matters involving the sensitivity of DEA operations we do not
use the names and locations of the DEA aviation and district offices we visited in the field.
For example, for one location we visited, we use Aviation Office A and Field Office A instead
of the actual location and office names.



                                             47

Data Analysis

       We also examined FY 2009 and 2010 DEA aviation data where
appropriate within the scope of our audit. This data was maintained within
the DEA Aviation Division’s Alliance Aviation Management System (AAMS).
We obtained from the DEA two database files, one each for FYs 2009 and
2010, that contained the data entered into AAMS for capturing DEA aviation
activity data. As with most data, the reliability of this data is inherently
determined by the integrity and care when initially recording the data and
inputting the data into AAMS. Our report describes issues with the
completeness and accuracy of the data entered into AAMS and makes
recommendations to remedy these deficiencies. With the additional
information in our report and within the context of our audit objective, we
believe the data provided by the DEA can be used to support appropriately
our audit findings, recommendations, and conclusions.

      Our analysis included identifying the universes of missions flown and
unfulfilled requests for aviation support, both of which are tracked in AAMS.
For aviation missions flown, we organized the data by the type of operation:
administrative, maintenance, training, and operational/investigative. The
majority of our analysis included more detailed analysis of the
operational/investigative data, the results of which are presented in our
report.

      In order to classify aviation operational-related aviation data, we used
the DEA’s case classification G-DEP code. All missions in support of
operations with a G-DEP code beginning with “Y” were classified as “priority
target” missions. All other G-DEP codes were classified as “non priority
targets.” Missions with a “9000” series case file number were classified as a
headquarters program mission. If a G-DEP code was not provided, missions
were appropriately categorized using the operation name or by case file
numbers and through consultation with DEA personnel to help inform our
methodology. Those without a G-DEP code and with a case file number
series other than 9000 were classified as non-priority target missions.




                                      48

Prior OIG Report

       The OIG previously reviewed aviation operations of the DEA in 1995. 30
Similar to this audit, its objective was to assess the operations of the DEA
aviation program and to determine areas where the DEA could improve the
efficiency, effectiveness, and safety of its aviation operations. This 1995
audit was part of the President’s Council on Integrity and Efficiency’s review
and assessment of civilian aircraft in the Executive Branch. No significant
deficiencies were found in the executive and administrative use, safety,
proper operation, continuing need, and disposal of DEA aircraft. However,
the audit found that not all DEA aircraft sampled were maintained in
accordance with Federal Aviation Regulations and DEA aviation cost reports
submitted to the General Services Administration of FY 1993 understated
actual operating costs by approximately $7.9 million.




      30
         U.S. Department of Justice Office of the Inspector General (OIG), Audit of the
Drug Enforcement Administration Management of Aviation Operations, Audit Report 95-29
(August 1995).


                                           49

                                                                                             APPENDIX II
THE DEA’S RESPONSE TO THE DRAFT AUDIT REPORT

                                                      u. S. Department of Justice
                                                      Drug Enforcement Administration




   www.dea.gov                                        Washington, D.C. 20537



                                                        SEP 3 0 2011
   MEMORANDUM

   TO:            Raymond J. Beaudet
                  Assistant Inspector Oeneral for Audit
                  Office of the Inspector GeneraJ

   FROM:          KevinM. FOleyJ('7..       ~
                  Deputy Chief Inspector
                  Office oflnspections

   SUBJECT:       DEA's Response to the 0I0's Draft Report: Audit o/the Drug Enforcement
                  Administration's Aviation OperatiOns

       The Drug Enforcement Administration (DEA) has reviewed the Department of Justice
   (DOJ). Office of the Inspector General's (010) Draft Audit Report, entitled: Audit ofthe Drug
   Enforcement Administration's Aviation Operations. DEA acIc.nowle<iges OIO's efforts in
   conducting a review to evaluate how the DEA manages its aviation resources to effectively
   support its mission. DEA is committed to being an international organization having a global
   presence with a single-mission dedicated to drug law enforcement. DEA focuses on the vision
   to disrupt and dismantle the major drug trafficking supply organizations and their networks,
   especially the poly-drug trafficking sources of supply who dominate global drug markets.

       The Audit of DE A's Aviation Operations resulted in a 2J-month review thai contains II
   administrative recommendations that did not identify any fraud, waste, or abuse. 010 indicated
   in their Statement on lntemal Controls that "we did not identify any deficiencies in the DEA's
   internal controls that are significant within the context of the audit objectives and based upon the
   audit work perfonned that we believe would affect the DEA 's ability to effectively and
   efficiently operate .... "

       DEA considers the recommendations made by 010 as: being excessive considering budget
   constraints in the current envirorunent of budgetary uncertainty; were already in the development
   process either prior to the audit initiation or during the audit review; and recommendations that
   already have a current operating procedure in place. In the pages that follow, DEA provides a
   response to each of the recommendations. However; prior to addressing the recommendations,
   DEA provides the following general comments about the report and the analysis made by 010.
   Much of the infonnation detailed in DEA's response was discussed with the 010 auditors during
   the exit conference.




                                                    50

Raymond J. Beaudet, Assistant Inspector General for Audit                                   Page 2


    The Aviation Division's (OA) mission is to provide tactical, tedmical, and administrative
aviation support to enhance and enable DEA' s worldwide mission. The support that OA
provides is driven by the needs of Enforcement Opemtions. The OIG did not take into account
that while OA does have the latitude to detennine which missions it supports, the Enforcement
Division is the driving force behind the actual requests for aviation support. Further, to analyze
the missions supported and attempt to show a greater need to support Priority Target
Organization (PTO) cases over non-PTO cases shows a lack of understanding of drug law
enforcement operations and the benefit that aviation support provides. While OA does, in fact,
support PTO investigations, the mere fact that a mission is connected to a PTO does not
necessitate the need for aviation support. Rather than striving to ensure DEA aviation resources
are used to support "the highest priority enforcement operations" as suggested by OIG, OA
seeks to provide aviation support to the cases which have the "greatest need for aviation
support" and would derive the most in terms of intelligence and evidence gathering as well as
safety of ground personnel.

OEA provides the following in response to the reconunendations.

   Ruomme"dtJIio" 1: Require tbat field office supervison iDitbte all aviatioD support
   requests to help eDsure tbat tbe approval aDd prioritizatioa of DEA aviatioa support
   requests are cowisteDt. AdditioDally, ia iDstaDces wbere prioritizatioa is aeceslary tbe
   DEA sbould require d(l(umeDtatiOD of tbe dec:lsioD.

   DEA does Dot CODcur witb tbis recommeadatioa. While OEA recognizes that its
   philosophy of allowing personnel at the Special Agent and Special AgentlPilot level to
   request and to make the detennination on whether or not to perfonn a mission respectively or
   how to prioritize conflicting missions is unique, it allows for the appropriate level of
   flexibility needed in conducting drug law enforcement missions. Drug law enforcement
   operations are unique in that they frequently occur with very little prior notification and are
   fluid . The flexibility of the opemtions necessitates a sliding schedule as planned operations
   can change at a moment's notice. Implementing a rigid requirement for all aviation support
   requests to originate at the management level could hinder the ability to effectively use
   aviation assets to support the enforcement groups, which is OA 's primary mission.

   It is important to note that many of the Special AgentlPilots are physically located in the area
   of operations which they support and, therefore, attuned to the needs of that division. It has
   been OEA's position to encourage conununication and dialogue between Special
   AgentlPilots, their COWlterparts in the field divisions and management in both the Aviation
   and field divisions. This communication facilitates discussion on mission prioritization
   including factors such as availability of aircraft, safety and missionlopemtional needs.

   In regard to prioritizing mission requests, OA previously established guidelines for resolving
   conflicts with operational missions which are detailed in its Aviation Operations Handbook.
   The guidelines require docwnentation regarding the priority of the mission and provide the
   opportunity for a resolution to be made with the input ofOA and field division management
   at two different levels. It appears that OIG's concerns regarding the need to ensure
   prioritization of missions may be overstated, as auditors noted in the Draft Audit Report




                                             51

Raymond 1. Beaudet. Assistant Inspector General for Audit                                  Page 3

   (page 16) that DEA field office personnel interviewed said, "they did not recall any instances
   where a lower priority case received aviation support instead of a high priority case."

   RecommLndiltiolll: Enlure tbat tbe automated million report form (in del'elopment as
   of August 2011) does not allow important information, l uch al cale numben and G­
   DEP codes, to be omitted.

   DEA concun witb tbis reeommendation. As discussed during the exit conference and in
   several meetings with OIG, DEA has been working to develop an automated mission report
   fonn. The process to develop this automated fonn began in 2008, a year prior to the
   initiation of this audit. As the development stage progressed, OA changed the system on
   which the fonn would be maintained. The current version of the automated fonn, which is
   still being refined, already requires a case number and GOEP code for aU missions defined
   as Investigative. Once a case number is input, the updated mission report will allow the
   GOEP code to auto-populate.

   Recommetuhltioll 3: Rfl'ise its mission report form to include dermitiou or guidance
   for penonnel to refer to when completing negative mission report.

   DEA concun witb this recommendation. As indicated previously in Recommendation 2,
   DEA began the development of an automated mission report fonn in 2008. During the audit
   S4Xlpe, fiscal years (FY) 2009.2010, DEA flew over 24,000 missions and had approximately
   2,300 negative missions. Of the 26,300 potential missions, 76 missions (.29 percent) were
   categorized as negative for reasons which were not specified on the mission report and had
   the potenti81 to be erroneously reported. While DEA does not believe that the less than one
   percent of instances where there were potential errors in completing a negative mission
   necessitates this audit recommendation. language to clearly define the guidelines for
   W18vailability of aircraft has been developed to address this concern and will be added to the
   mission report fonn instructions.

   Recommendation 4: Perform a periodic analysis of lu unfulfilled aviation support
   request data to more accurately identify the causes of and trends in aviation resource
   derJciencies and to assist in projedmg aviation program needs.

   DEA does not concur with this recommendation. DEA belifl'es this recommendation has
   been addressed through methods utilized to resolve possible deficiencies in aviation
   resources and projections of the needs of the aviation program. OA management. from the
   Special Agent in Charge to Assistant Special Agents in Charge to the Resident Agents in
   Charge and Area Supervisors, maintain regular contact with both Headquarters and field
   division management to discuss issues in these areas. Additionally, 811 OA managers are
   tasked with reviewing monthly flight data (aircraft hows and pilot missions). which includes
   negative missions. While these reports may only address the number of negative missions for
   a specific aircraft or pilot, they give OA managers a vehicle to track trends or changes and to
   subsequently perfonn more in-depth evaluations as needed.

   As discussed during the exit conference, DEA is working to ensure that its reporting system
   contains the most accurate infonnation possible through the implementation of an automated




                                            52

Raymond J. Beaudet, Assistant Inspector General for Audit                                 Page 4

   mission report. The automated mission report will allow for timely input of data and
   eliminate some ofme margin for error in data input, thus providing reports that aid in more
   precisely identifying me causes in aviation resource deficiencies.

   R~colfUtU,.diuio,.
                   S: Require field offices 10 report tbe reason wby Ibe aviation uset is
   unavailable wben reportiug on unfulfilled aviation requesls.

   DEA does not concurwitb tbis recommendation. OEA recognizes OIG's desire to
   document me reason for unfulfilled aviation support requests. However; OEA already has a
   method in place by which the unavailability of an aviation asset can be documented utilizing
   the field which specifies the reason the aviation asset is unavailable on the mission report
   fonn. As slated in the response to Recommendation 3, language to clearly define the
   guidelines for unavailability of aircraft has been developed to address this concern and will
   be added to the mission report fonn instructions. OEA believes that more clearly defining
   the availability options on the mission report fonn will suit the needs of the OA.

   R~colfUtU,.diuioll
                    6: Perform a regular aDalysis of Special Agent Pilol certifications and
   determine tbe necessary number of certified pilots of eacb type of aircraft bued on
   bistoricaland projected aircraft usage.

   DEA does not concur wltb this recommendation. DEA believes this recommendation
   has already been accomplished as a specific process for perfonning analysis of pilot
   certifications is already in place. The OA's Training Officer, in conjunction with other OA
   managers, perfonns annual analyses ofOA's larger aircraft and pilots to detennine whether
   there is a need for pilots to maintain Aircraft Commander status in specific aircraft. As was
   discussed during the exit conference, one such evaluation had been perfonned just prior to
   the exit conference which reswted in the reduction of Aircraft Commanders to one particular
   type of aircraft in the fleet. Following the exit conference, an evaluation of the number of
   Aircraft Commanders in a second type ofaircraft was conducted resulting in another
   reduction.

   Recomm~lJdIlIlolI
                   7: Identify and properly traiD a suflicieDt cadre of obsenen to
   miDimize the occurrente of unfulfilled aviatioD support request due to obsener
   uaavailability.

   DEA does nol toatur with tbis reeommeadation. Prior to the OIG audit, OA conducted
   observer training for interested and capable personnel utilizing its own Special AgentIPilots,
   as well as Special Agents who have significant experience perfonning the role of observer.
   Task Force Officers were also utilized as an option for observers. OA further developed a
   Contractor Observer Program to conduct this duty as well; however, due to budgetary
   constraints, the Contractor Program was discontinued in the 3'" quarter FY 2011. OA
   managers encourage field division managers to select Special Agents from their divisions to
   serve as observers. However, the Enforcement Division's selection is limited by the number
   of Special Agents who volunteer for this coliateralJhaz.ardous duty. In this time of budgetary
   unceJtaintyand limited resources, OA will provide training to those Special Agents who
   volunteer for the observer duty, but unless more funding is received for additional DEA




                                            53

Raymond J. Beaudet, Assistant Inspector General for Audit                                    Page 5

   personnel to be observers, OA has accomplished this recommendation as reasonably
   possible.

   RecommendDlion 8: Revise its aircraft fled replacement plan in line with its current
   budget and the goal of standardizing its Oeet. Fnrther, the DEA should conlinue to
   consider alternative, low cost strategies to minimize the effect that its aging Deet hu on
   day to day operation and maintenance needs.

   DEA does not eontur with this recommendation. DEA does not have a set budget for
   aircraft fleet replacement which makes it difficuJt to create a realistic fleet replacement plan.
   As previously discussed with the 010 auditors. the OA developed a replacement plan which
   was mindful of budget constraints. However, this replacement plan could not be
   implemented due to budgetary issues. Despite this. 010 continues to recommend creating a
   fleet replacement plan in line with DEA's current budget, disregarding the fact that there is
   not a specified budget for aircraft replacement.

   DEA has actively worked to standardize its fleet to provide the best possible support to
   operations. while minimizing maintenance costs. In the past seven years. three different
   types of aircraft have been eliminated from the fleet and, when possible. replaced with
   aircraft of the same type already in the fleet This effort is continuing and it is anticipated
   that at least one additional type of aircraft will be eliminated due to maintenance and cost
   issues. At the same time, seven new aircraft will be added to fleet in the near future. These
   aircraft are of the same type already common in the fleet. This was accomplished by using
   "old year" money and selling older aircraft in the fleet. Due to the complex nature of its
   mission, the OA must maintain several different types of aircmft which are appropriate to
   operational needs and the locations they are being flown.

   R«ommendation 9: Actively examine the possibility of obtaining private hangar space
   or sharing hangar space witb otber law enforcement agencies to belp defray cost and
   improve aviation penonnel and uset seeurity.

   DEA does not eoncur witb this recommendation. DEA believes this reconunendation has
   been accomplished as there is a current process in place to examine possibilities to obtain
   private/shared hangar space to defray cost. This process has been in place within OEA prior
   to the OIG Audit. OEA takes the security of its aircraft very seriously and does attempt to
   obtain hangar space which provides the best level of security possible. DEA is required to
   utilize the General Services Administration (GSA) for long-tenn leases of hangar space. In
   order to remain within the parameters of the budget and to fully support the operational
   needs of the DEA, specific requirements are provided to the GSA and hangar space with
   those requirements is actively sought. It is not always economica1ly feasible to obtain
   private hangar space or to share with other law enforcement entities in the locations where
   OEA operates especially in times of budgetary uncenainty.

   OEA also seeks low cost hangar space on secure fac:ilities when possible. In one state where
   hangar space can be difficult to find, OEA has entered into Memoranda of Understanding to
   utilize fac:ilities on both a military and a National Guard site. In both of these instances,
   OEA pays specific fees relevant to services it uses and to the operation of its aircraft, but is




                                             54

Raymond J. Beaudet, Assistant Inspector General for Audit                                     Page 6

   not charged a leasing fee.

   Of the remaining 38 domestic locations, DEA has private hangar space in 13 locations,
   shared commercial space with another law enforcement entity in one location and shared
   commercial space in 24 locations. Therefore, approximately 40 percent of DE A' s hangar
   space meets the parameters that OIG considers to be more secure. DEA believes this
   rerommendation has been accomplished as reasonably possible given GSA requirements,
   restrictions, and budget constraints.

   R~co",""mdDtio,.10: EDSure tbat aU appropriate DEA aircnft are registered !!Overtly
   with the Fedenl Aviation AdmiDistntioa.

   DEA c:onc:un with this re<:ommendation. In early 2011, DEA began the process of
   covertly registering all appropriate DEA aircraft. The OA understands the importance of
   covertly registering its aircraft to enhance pilot and aircraft safety and is attempting to do so
   in as many instances as possible. However, to covertly register the aircraft that operate in a
   foreign environment would cause the OA to lose some of the benefits associated with
   registration as a federal government agency, such as the ability to land at military bases, as
   well as waivers on fees, taxes, and international regulatory requirements. It is antidpated
   that the process to register all appropriate domestic aircraft will be c:ompleted by FY 2012.
   R~co"'mI!,.datIo,.ll:  Implement a mandatory, formal pre.night risk assessment that
   adequately dowmenu and objectively quantirleS tbe Aircraft Commander's assessment
   oftbe level of risk associated witb a night before takeoff.

   DEA does not CODc:ur with tbis re<:ommendation. As has been addressed during past
   meetings, DEA does have a pre-flight risk assessment procedure in place which is identified
   in the Aviation Operations Handbook. This procedure provides pilots with both a risk
   assessment matrix and a checklist to evaluate potential risks prior to flying a mission.

   Additionally, all DEA Special AgentlPilots hold Federal Aviation Administration (FAA)
   commercial and/or Airline Transport Pilot certificates. With the issuance of these
   certificates, aJl DEA Special Agent/Pilots are trained in FAA regulations, rules and
   procedures. This includes flight proficiency and aeronautical knowledge to include multiple
   checklists before, during, and after flight missions.

   DIG assumes that the lack of a paper document to indicate the assessment was completed
   prior to a flight indicates that a risk assessment has not, in fact, been perfonned. This is
   inaccurate as DEA's pilots perfunn a thorough pre-flight procedure which incorporates risk
   assessment in addition to other processes such as weather evaluation and aircraft
   manufacturer's recommended procedures for a comprehensive pre-flight appraisal.
   DEA remains conunined to combating global drug traffickers, drug related terrorism, and
   other transnational crimes by disrupting and dismantling major drug trafficking supply
   organizations and will work to address process improvements. Documentation detailing
   DEA's efforts to implement concurred recommendations noted in this report will be
   provided to the OIG on a quarterly basis, until the corrective actions have been completed.




                                             55

Raymond J. Beaudet, Assistant Inspector General for Audit                            Page 7

   If you have any questions or concerns regarding DEA's response to the OIG Audit Report
   recommendations, please contact the Audit Liaison Team at (202) 307-8200.




                                          56

                                                               APPENDIX III



                    OFFICE OF THE INSPECTOR GENERAL

                   ANALYSIS AND SUMMARY OF ACTIONS

                     NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the DEA. The DEA’s
response is incorporated in Appendix II of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to resolve and close the report.

Analysis of the DEA’s Response

      In response to our audit report, the DEA stated that it did not concur
with 8 of the 11 recommendations. In addition, the DEA provided comments
that were not related directly to our recommendations, to which we first
reply before discussing the DEA’s specific responses to each of our
recommendations. As we discuss in more detail below, we do not agree with
specific statements in the DEA’s response and with the DEA’s categorization
of our recommendations.

       The DEA stated in its response that our audit report “contains
11 administrative recommendations that did not identify any fraud, waste,
or abuse.” We disagree with the DEA’s characterization that our
recommendations are administrative in nature. Our recommendations
directly address operational improvements that can be made to the DEA’s
management, utilization, and security of its limited, costly, and operationally
valuable aviation resources. These recommendations are consistent with our
statutory mission to “recommend policies for activities designed to promote
economy, efficiency, and effectiveness in the administration of… programs
and operations.” 1

       Also in its response, the DEA selectively quotes a portion of our
report’s Statement on Internal Controls, which states, in part, that “[the
OIG] did not identify any deficiencies in the DEA’s internal controls that are
significant within the context of the audit objectives and based upon the
audit work performed that we believe would affect the DEA’s ability to
effectively and efficiently operate….” The DEA’s selective use of language
from our report’s Statement on Internal Controls is misleading. The

      1
          5 U.S.C. app.3 § 2 (2008).



                                       57

Statement on Internal Controls is intended to identify, within the context of
our audit objective, significant internal control deficiencies that would not
allow management to timely prevent or detect impairments to the
effectiveness and efficiency of operations. Although we did not identify such
significant deficiencies, we believe that corrective actions to address our
report’s 11 recommendations will help improve the effectiveness of the
DEA’s management of its aviation operations and enable the DEA to make
better-informed decisions on the use of its aviation resources.

        In its response, the DEA grouped our recommendations into three
categories and considers our recommendations as: (1) being excessive
considering budget constraints in the current environment of budgetary
uncertainty, (2) already in the development process either prior to the audit
initiation or during the audit review, and (3) already having a current
operating procedure in place. Again, we disagree with this categorization of
our recommendations.

       First, our report acknowledges the fiscal climate, and our
recommendations stress the importance of enhancing the use of existing
procedures, systems, and data to maximize the aviation program’s ability to
provide support to DEA operations now and in the future. During the current
fiscal climate, we view it as more important than ever that DEA undertake
the fiscally prudent approach contained in our recommendations. Second,
when developing our findings and recommendations, we considered
information provided by the DEA throughout our audit, including information
the DEA provided for the first time at the exit conference. In each instance
where the DEA stated that it developed some initiatives related to our
recommendations, we recognized these efforts in our report and made
recommendations to ensure these initiatives were fully implemented where
necessary. Third, our report recognizes existing DEA procedures. We
believe enhancing existing practices and procedures is a cost-effective,
minimally disruptive means to improving the DEA’s management of its
aviation operations.

      The DEA made additional comments in the opening narrative of its
response with which we disagree. In its response, the DEA stated that
“[t]he OIG did not take into account that while [the DEA Aviation Division]
does have the latitude to determine which missions it supports, the
Enforcement Division is the driving force behind the actual requests for
aviation support.” This statement ignores the plain language of our report.
We did not limit our recommendations only to the DEA’s Aviation Division.
Rather, our recommendations are addressed to the DEA as a whole,
including its enforcement and aviation operations. Throughout the report,
we recognize that the Aviation Division operates as a support function for


                                     58

DEA’s enforcement operations. In fact, the very first paragraph of the report
states:

      According to DEA, aviation support significantly benefits DEA
      investigative and intelligence efforts, and enhances the safety,
      anonymity, and effectiveness of DEA operations both domestically and
      internationally. DEA aviation resources are primarily used to support
      DEA enforcement and intelligence operations by providing aerial
      surveillance, assisting land and water interdiction efforts, and
      performing reconnaissance. (Emphasis added).

       In addition, the DEA stated in its response that “to analyze the
missions supported and attempt to show a greater need to support Priority
Target Organization (PTO) cases over non-PTO cases shows a lack of
understanding of drug law enforcement operations and the benefit aviation
support provides.” The DEA response also stated that “[w]hile [the Aviation
Division] does, in fact, support PTO investigations; the mere fact that a
mission is connected to a PTO does not necessitate the need for aviation
support.” These statements mischaracterize our analysis. Nowhere in our
report do we state that simply because a particular case is a PTO case it
should receive priority consideration for aviation support. Instead, the
report points out (and DEA did not dispute) that overall, the majority of all
DEA flight hours (over 65 percent in FY 2010) were in support of PTO cases,
even though only 20 percent of all DEA cases were classified as PTOs in
FY 2010. We then point out in the report that two of the five field offices we
visited did not reflect this national trend. We stated that this may be
problematic due to the lack of a documented prioritization process.

Summary of Actions Necessary to Resolve and Close the Report

 1.	 Unresolved. The DEA does not concur with our recommendation that
     field office supervisors initiate all aviation support requests and that, in
     instances where prioritization is necessary, the DEA should require
     documentation of the prioritization decisions. As DEA officials stated
     at the audit close-out meeting, DEA supervisors have a breadth of
     knowledge and experience that makes them valuable to DEA
     operations. Further, these officials stated that these supervisors
     should be involved in the request process. This recommendation is
     made to formalize this assumed practice and to help ensure that the
     DEA field office supervisors’ knowledge and experience are included
     when DEA enforcement personnel request aviation support.
     As the report notes, in FYs 2009 and 2010, Special Agent Pilots
     reported 138 instances where requests for aviation support were not
     fulfilled because aviation resources were being used to support higher


                                      59

priority missions. In addition, the report notes that Special Agent
Pilots do not necessarily report aviation support requests that are
denied verbally. By not requiring formal supervisory involvement in
the request and prioritization processes, the DEA is not drawing on the
knowledge and experience of its supervisors to better ensure that
missions are properly prioritized and that unfulfilled missions are
appropriately documented.

The DEA stated in its response that permitting Special Agents and
Special Agent Pilots to determine the performance and prioritization of
aviation missions allows for the flexibility needed in conducting drug
law enforcement missions. DEA believes that implementing such a
“rigid” requirement at the management level could hinder the DEA’s
ability to effectively use its aviation assets to support its enforcement
groups.

We disagree with the DEA that requiring formal supervisory
involvement imposes a rigid requirement. Again, DEA officials stated
that DEA Special Agents should be involving supervisors in requests
for aviation support. Further, as stated in our report, we found that
aviation support may be denied verbally during an informal request.
The risk exists that such field office supervisors will not be informed of
these occurrences. We do not believe that requiring supervisors to
originate aviation support requests adds undue rigidity to the aviation
request procedure. Our recommendation is made to enhance the
DEA’s existing procedures and formalize assumed practices.

As for the documentation of the prioritization of missions, the DEA
states in its response that the DEA Aviation Operations Handbook has
established guidelines for resolving and documenting operational
mission conflicts. While the DEA handbook does require the
documentation of unfulfilled requests that may be due to higher
priority missions, it does not require that the justification of the
decision be documented. Simply checking a box on a mission report
form that a request for aviation support was unfulfilled because
another priority mission was flown does not provide useful information
for evaluating these important decisions. We believe it would be
useful to the DEA’s oversight of its aviation program to make a slight
procedural improvement and require a brief description of the rationale
for deciding between competing requests for aviation support.

This recommendation is unresolved. This recommendation can be
resolved when the DEA either: (1) indicates that it plans to require
formal supervisory involvement in initiating requests for aviation


                                60

    support and when it requires the documentation of the prioritization
    decisions made between competing requests for aviation support; or
    (2) suggests an alternative means of ensuring its field office
    supervisors have knowledge of all initial requests for aviation
    support – particularly requests that are denied – and considers
    alternative means for evaluating whether the use of aviation resources
    are being properly prioritized.

2.	 Resolved. The DEA concurred with our recommendation that it
    ensure its automated mission report form does not allow important
    information, such as case numbers and G-DEP codes, to be omitted.

    This recommendation can be closed when the DEA provides us with
    sufficient documentation regarding the technical capabilities of the
    automated form that demonstrates that important information such as
    case numbers and G-DEP codes cannot be omitted. In addition, the
    DEA must provide evidence of the successful usage of the automated
    mission report form in the field.

3.	 Resolved. The DEA concurred with our recommendation that it revise
    its mission report form to include definitions or guidance for personnel
    to refer to when completing negative mission reports. Specifically, the
    DEA stated that guidance regarding the reporting of the unavailability
    of aircraft will be added to the mission report form instructions.

    This recommendation can be closed when the DEA provides us with
    sufficient documentation of its guidance to DEA personnel in
    completing negative mission reports and evidence that the use of the
    automated form has been implemented successfully.

4.	 Unresolved. The DEA does not concur with our recommendation that
    it perform a periodic analysis of its unfulfilled aviation support request
    data to more accurately identify the causes of and trends in aviation
    resource deficiencies and to assist in projecting aviation program
    needs. We believe analyzing the trends and effects of unavailable
    aviation resources affords the DEA useful data in understanding its
    aviation resource needs and making decisions on its aviation resource
    allocations.

    As stated in the report, during our audit the Special Agent in Charge of
    the Aviation Division told us that the DEA does not formally analyze
    unfulfilled mission data. However, at the audit close-out meeting, the
    Special Agent in Charge, along with other DEA officials, stated that the
    DEA does analyze such data on an informal basis using monthly


                                     61

reports that summarize aviation operations. We made our
recommendation to formalize the analysis of the monthly report data
in order to identify causes and trends in unfulfilled requests for
aviation resources.

In its response to the report, the DEA stated that it “believes this
recommendation has been addressed through methods utilized to
resolve possible deficiencies in aviation resources and projections of
the needs of the aviation program.” The methods cited in its response
are communication between Aviation Division management and the
use of monthly report data. We agree that these are appropriate
methods. However, we believe the DEA can improve upon these
methods in further analyzing data it already collects each month.

The DEA stated in its response that monthly flight data is “a vehicle to
track trends or changes and to subsequently perform more in-depth
evaluations as needed.” We agree, and this view is the premise for
our recommendation. However, the DEA did not state or ever
demonstrate during the audit that it analyzed this data over periods of
time to identify trends in or to determine the operational effects of
unavailable aviation resources.

As we discuss in our report, the monthly reports provided by the
Aviation Division only provide management with snapshots of aviation
data for a single month, and only for each pilot and for each aircraft.
We concluded in our report that “these reports are limited in value, as
they do not afford the DEA an understanding of any trends in
unavailable resources or provide insight into the effects of unavailable
aviation resources.” Our recommendation intends for the DEA to
improve the use of data it already collects. As previously stated, we
believe this will afford the DEA Aviation Division useful information to
enhance its management of the aviation program.

In its response the DEA agrees that its monthly report data can be
used to track trends in unfulfilled requests for aviation support.
However, because it disagrees with instituting periodic analysis of this
data this recommendation is unresolved. This recommendation can be
resolved when the DEA either: (1) agrees to establish a reliable and
useful method for periodically analyzing unfulfilled aviation support
request data that allows the DEA to identify the causes of and trends
in aviation resource deficiencies and to assist in projecting aviation
program needs; or (2) suggests an alternative means for gaining a
more in-depth understanding of the causes of and trends in unfulfilled
requests for aviation support.


                                62

5.	 Resolved. The DEA stated that it does not concur with our
    recommendation that it require field offices to report the reason why
    the aviation asset is unavailable when reporting on unfulfilled aviation
    requests. However, while the DEA stated that it did not concur with
    this recommendation, it also stated that there was a method in place
    by which the unavailability of an aviation asset can be documented,
    referring to its mission report form that we discuss in our report.
    Additionally, the DEA described in response to recommendations 2 and
    3 actions it is now taking to ensure more accurate data on unfulfilled
    aviation requests. We believe these actions will help ensure data on
    unfulfilled aviation requests is reported in a consistent manner.

    Our intent with this recommendation is for the DEA to require field
    offices to be more specific, where appropriate, when reporting the
    reason for unfulfilled aviation requests. We encourage the DEA to
    consider expanding certain categories on its mission report form for
    why a request for aviation support was not fulfilled. For instance, the
    DEA captures unfulfilled aviation requests because a pilot is not
    available. However, a pilot may not be available for several reasons,
    such as being temporally detailed or on approved leave. By capturing
    additional detail that better explains why aviation assets are
    unavailable, the DEA will capture additional data that can be analyzed
    and utilized for more precise planning and management of its aviation
    resources. These actions will ensure that the DEA Aviation Division
    has sufficient information to understand the factors affecting the
    availability of aviation resources.

    Given the DEA’s stated intent to improve its mission report form, we
    consider this recommendation resolved despite the DEA stating that it
    did not concur with the recommendation. This recommendation can
    be closed when the DEA demonstrates that the updated mission report
    form will capture sufficiently the specific reasons why aviation assets
    are unavailable to support operations when requested.

6.	 Unresolved. The DEA does not concur with our recommendation that
    it perform a regular analysis of Special Agent Pilot certifications and
    determine the necessary number of certified pilots for each type of
    aircraft based on historical and projected aircraft usage. This type of
    analysis will assist the DEA in identifying the optimum number of pilots
    for each aircraft type, which will assist the DEA in ensuring it has a
    sufficient number of pilots and in controlling training costs.




                                    63

    While the DEA did not concur with our recommendation it appears that
    it finds value in this type of analysis. In its response to our report the
    DEA stated that for two different aircraft it recently conducted the
    analyses that we recommend. The DEA noted in its response that one
    analysis was performed just before the audit close-out meeting and a
    subsequent analysis was performed following the close-out meeting.
    The DEA did not indicate or provide any evidence that this type of
    analysis occurs on a regular basis, and it did not provide us with
    evidence of the two analyses it referred to in its response. Further,
    the DEA did not state whether it planned to perform such analyses for
    its other aircraft types.

    Therefore, this recommendation is unresolved. This recommendation
    can be resolved when the DEA either: (1) provides evidence that it
    plans to perform regular analyses of Special Agent Pilot certifications
    and determine the necessary number of certified pilots for each type of
    aircraft in its fleet; or (2) suggests alternative means of determining
    and managing the number of certified pilots it needs for each type of
    its aircraft to help ensure a sufficient number of pilots and to assist in
    reducing costs (such as training costs) associated with an excessive
    number of pilots being certified for particular aircraft types.

7.	 Resolved. The DEA stated in its response that it did not concur with
    our recommendation that it identify and properly train a sufficient
    cadre of observers to minimize the occurrence of unfulfilled aviation
    support requests due to observer unavailability. Our audit found that
    DEA data and DEA personnel indicated that unavailable observers
    affect the DEA Aviation Division’s ability to fulfill requests for aviation
    support. Even if a pilot and aircraft are available, without a trained
    observer the Aviation Division cannot support DEA operations. As we
    state in our report, we made this recommendation “given the necessity
    of observers during aviation missions, the elimination of the contract
    observer program, and the number of reported unfulfilled aviation
    requests due to observer unavailability.”

    In its response to our report the DEA stated that it is continuing to
    train Special Agents who volunteer for observer duty. We believe the
    DEA agrees that it must make an effort to minimize the number of
    unfulfilled missions due to unavailable observers, particularly when, as
    we noted in our report, it recently eliminated its Contractor Observer
    Program due to budgetary constraints.

    Despite not concurring with the recommendation, we believe the DEA’s
    response to this recommendation and its intent to identify additional


                                     64

    observers adequately resolves this recommendation. We encourage
    the DEA to explore alternative means for recruiting volunteer
    observers internally.

    This recommendation can be closed when the DEA provides evidence
    of its efforts to identify and properly train a sufficient cadre of
    observers to minimize the occurrence of unfulfilled aviation support
    requests due to observer unavailability.

8.	 Unresolved. The DEA does not concur with our recommendation that
    it revise its aircraft fleet replacement plan in accordance with its
    current budget and its goal of standardizing its fleet. In the present
    budget climate, we believe that the DEA would benefit from revising its
    current replacement plan, which is based on $9 million annual budget
    enhancements. Further, we believe it would be valuable for the DEA
    to have an aircraft replacement plan that documents the DEA’s
    strategy for modernizing and standardizing its aviation fleet over time
    and within current budget realities.

    Although the DEA receives funding to utilize aviation support in its
    operations, we recognize that the DEA does not have a specified
    budget for aircraft replacement. Our report notes, and the DEA
    acknowledges, that its current aircraft replacement plan is not in line
    with current budget realities. In addition, the current replacement
    plan indicates a goal of standardizing the DEA’s fleet, but does not
    state specifically how the DEA would standardize its fleet through
    replacement. For these reasons, we believe the DEA would benefit,
    now and in the future, from updating its aircraft replacement plan.
    Further, maintaining an up-to-date strategic document helps ensure
    continuity with the overall DEA enforcement strategy and helps to
    ensure that replacement goals and efforts are continued during
    turnover in executive management.

    Our recommendation also states that the DEA should continue to
    consider alternative, low cost strategies for replacing aircraft to
    minimize the effect that its aging fleet has on day-to-day operations
    and maintenance needs. While the DEA did not agree with this
    recommendation, the DEA stated in its response that it was eliminating
    one aircraft due to maintenance and cost issues and that it utilized
    “old year” money and sold older aircraft in order to add seven new
    aircraft to its fleet in the near future. The DEA stated that these new
    aircraft are of the same type as other aircraft in its current fleet.
    These efforts demonstrate the DEA’s continued efforts to identify
    alternative means of replacing aircraft.


                                    65

    Because the DEA does not agree to update its aircraft replacement
    plan within current budget realities this recommendation is unresolved.
    This recommendation can be resolved when the DEA either:
    (1) indicates it is working on a revised aircraft replacement plan that is
    in line with its current budget and that adequately describes its
    strategy for a standardized DEA aviation fleet; or (2) suggests an
    alternative means for ensuring that its strategy and goals for replacing
    and standardizing aircraft within current budget realities is understood
    by decision makers – those in position now, and those in the future.

9.	 Resolved. The DEA stated in its response that it did not concur with
    our recommendation that it actively examine the possibility of
    obtaining private hangar space or sharing hangar space with other law
    enforcement agencies to help defray costs and improve aviation
    personnel and asset security. As we demonstrate in our report,
    sharing hangar space with commercial organizations or private
    individuals potentially risks the security of DEA aviation personnel and
    assets. We believe that, wherever possible, the DEA should use
    hangar spaced dedicated to DEA assets only, or share hangar space
    with other law enforcement if such a partnership can help defray costs.
    While we recognize that the DEA will not be able to immediately switch
    to private or law enforcement-shared hangar space in every instance,
    we do believe that the DEA should do whatever it can to minimize
    safety and security risks by exploring options for obtaining more
    secure hangar space wherever possible.

    The DEA stated that it believes it has accomplished this
    recommendation as reasonably as possible given General Service
    Administration (GSA) requirements, restrictions, and budget
    constraints. However, the DEA also acknowledged in its response, and
    as we noted in our report, that only 40 percent of its hangar space
    meets the criteria expressed in our recommendation. Therefore,
    60 percent of the DEA’s hangar space places the security of its
    personnel and assets at a heightened risk.

    We recognize that the DEA must consider costs along with security.
    However, the DEA also explained in its response that while the GSA
    administers the identification of available hangar space, the DEA
    provides the GSA with specific requirements for it to use in identifying
    hangar space in a particular location. Therefore, the DEA reasonably
    can control the security parameters when searching for long-term
    hangar space.



                                    66

    Moreover, the DEA described in its response a low cost, secure
    arrangement to utilize military sites for storing its aircraft. In addition,
    following our audit close-out meeting DEA personnel in one location
    with shared hangar space told us that the DEA was working with its
    lessor to move DEA aircraft and personnel from a shared hangar
    environment to a DEA-only hangar at the same airport in which the
    DEA currently is located. We encourage the DEA to consider such
    options for hangar space in its other locations where it shares hangar
    space with commercial organizations or private individuals.

    Despite the DEA stating that it did not concur with our
    recommendation, we consider this recommendation resolved because
    the DEA's response exhibited the intent and demonstrated certain
    actions taken to reduce the number of shared hangar space locations.
    We will work with the DEA on actions necessary to close this
    recommendation, which involves demonstrating actions that examine
    possibilities of obtaining private or law enforcement-shared hangar
    space for all its aircraft.

10. Resolved.	 The DEA concurred with our recommendation that it
    ensure all appropriate DEA aircraft are registered covertly with the
    Federal Aviation Administration. The DEA stated in its response that it
    anticipated registering covertly all appropriate domestic aircraft by
    FY 2012.

    This recommendation can be closed when the DEA provides
    documentation demonstrating that all appropriate aircraft have been
    registered covertly.

11. Unresolved.	 The DEA does not concur with our recommendation to
    implement a mandatory, formal pre-flight risk assessment that
    adequately documents and objectively quantifies the Aircraft
    Commander’s assessment of the level of risk associated with a flight
    before takeoff. A pre-flight risk assessment form that objectively
    quantifies the risk of a mission provides the DEA additional assurance
    that its pilots are making sound decisions prior to takeoff.

    As stated in our report, we reviewed the DEA’s flight risk checklist that
    covers potential areas of risk affecting an aviation mission. We
    concluded that this checklist does not include a means of objectively
    quantifying the overall level of risk. Furthermore, DEA Aviation
    Division officials stated that this risk assessment is currently not
    mandatory.



                                     67

The DEA stated in its response that “[the] OIG assumes that the lack
of a paper document to indicate the assessment was completed prior
to a flight indicates that a risk assessment has not, in fact, been
performed.” This characterization is woefully inaccurate. The purpose
of this recommendation is for the DEA to ensure that adequate, pre­
flight risk assessments are being performed. By not requiring
documented pre-flight risk assessments, the DEA has no way to
ensure such assessments are being conducted consistently and on a
regular basis.

Overall, we found the DEA’s response to this recommendation
perplexing because at the audit close-out meeting the DEA Aviation
Division’s Special Agent in Charge stated that the Aviation Division was
planning to implement a mandatory, formalized pre-flight risk
assessment. The DEA gave no indication in its response why it now
does not plan to implement this practice. Despite the DEA’s change in
its position on the matter, we continue to believe that the potential
benefit of formalizing the pre-flight risk assessment procedure greatly
outweighs any perceived inconvenience related to this minor change to
the pre-flight routines of Special Agent Pilots.

Because the DEA disagrees with our recommendation to implement
this risk assessment this recommendation is unresolved. This
recommendation can be resolved when the DEA either: (1) provides
evidence of a mandatory, formal pre-flight risk assessment that
adequately documents and objectively quantifies the Aircraft
Commander’s assessment of the level of risk associated with a flight;
or (2) suggests an alternative means of ensuring its pilots, before each
flight, objectively assess the safety risks associated with the mission
and are guided on what steps to take in order to mitigate the risk and
on when to cancel a mission.




                               68

